APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Ninth Circuit, Davis v. Guam,
No. 17-15719 (July 29, 2019) ...................... App-1
Appendix B
Decision and
Order
re
Motions
for
Summary
Judgment,
United
States District Court for the District of
Guam, Davis v. Guam, No. 11-00035
(Mar. 8, 2017)............................................. App-43
Appendix C
Opinion, United States Court of Appeals
for the Ninth Circuit, Davis v. Guam,
No. 13-15199 (May 8, 2015) ...................... App-78
Appendix D
Order, United States District Court for
the District of Guam, Davis v. Guam,
No. 11-00035 (Jan. 9, 2013)....................... App-95
Appendix E
Relevant Statutory Provisions ................ App-118
48 U.S.C. § 1421b(u) ......................... App-118
Organic Act of Guam, Pub. L. No. 81630, 64 Stat. 384 (1950) .................... App-118
1 Guam Ann. § 2102.......................... App-121
1 Guam Ann. § 2105.......................... App-121
1 Guam Ann. § 2110.......................... App-122
3 Guam Ann. § 21000........................ App-122

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-15719
________________
ARNOLD DAVIS, on behalf of himself and all others
similarly situated,
v.

Plaintiff-Appellee,

GUAM; GUAM ELECTION COMMISSION; ALICE M.
TAIJERON; MARTHA C. RUTH; JOSEPH F. MESA; JOHNNY
P. TAITANO; JOSHUA F. RENORIO; DONALD I. WEAKLEY;
LEONARDO M. RAPADAS,
Defendants-Appellants.
________________
Argued and Submitted: Oct. 10, 2018
University of Hawaii Manoa
Filed: July 29, 2019
________________
Before: Kim McLane Wardlaw, Marsha S. Berzon,
and Johnnie B. Rawlinson, Circuit Judges.
________________
OPINION
________________
BERZON, Circuit Judge:
Guam’s 2000 Plebiscite Law provides for a
“political status plebiscite” to determine the official
preference of the “Native Inhabitants of Guam”

App-2
regarding Guam’s political relationship with the
United States. Guam Pub. L. No. 25-106 (2000). Our
question is whether the provisions of that law
restricting voting to “Native Inhabitants of Guam”
constitutes an impermissible racial classification in
violation of the Fifteenth Amendment. 1
Rice v. Cayetano, 528 U.S. 495 (2000), and Davis
v. Commonwealth Election Comm’n, 844 F.3d 1087
(9th Cir. 2016), respectively invalidated laws in
Hawaii and the Commonwealth of the Northern
Mariana Islands limiting voting in certain elections to
descendants of particular indigenous groups because
those provisions employed “[a]ncestry [as] a proxy for
race” in violation of the Fifteenth Amendment. Rice,
528 U.S. at 514. Guam’s 2000 Plebiscite Law suffers
from the same constitutional flaw. History and context
confirm that the “Native Inhabitants of Guam” voter
eligibility restriction so closely parallels a racial
classification as to be a proxy for race. Its use as a
voting qualification therefore violates the Fifteenth
Amendment as extended by Congress to Guam.
I
The factual background of this case is intertwined
with the history of Guam (the “Territory”), of its
indigenous people, and of its colonization. We
recognize that this history, like history in general, is
subject to contestation both as to exactly what
happened in the past and as to the interpretation of
1 Because we affirm the district court on Fifteenth Amendment
grounds, we do not address Davis’s arguments that the 2000
Plebiscite Law violates the Fourteenth Amendment, the Voting
Rights Act, and the Organic Act of Guam.

App-3
even well-established facts. We do not attempt to
settle those debates. “Our more limited role, in the
posture of this particular case, is to recount events as
understood by the lawmakers, thus ensuring that we
accord proper appreciation to their purposes in
adopting the policies and laws at issue.” Rice, 528 U.S.
at 500.
Guam has long been inhabited by an indigenous
people, commonly referred to as Chamorro. See
William L. Wuerch & Dirk Anthony Ballendorf,
Historical Dictionary of Guam and Micronesia 40-44
(The Scarecrow Press, Inc. 1994); Developments in the
Law, Chapter Four: Guam and the Case for Federal
Deference, 130 Harv. L. Rev. 1704, 1722 (2017).
Beginning in the sixteenth century, Spain colonized
Guam. Then, in 1899, after the Spanish-American
war, Spain ceded Guam to the United States through
Article II of the 1898 Treaty of Paris. Until 1950,
Guam remained under the control of the U.S. Navy,
except for a Japanese occupation from 1941 through
1944. See Guam v. Guerrero, 290 F.3d 1210, 1214 (9th
Cir. 2002). In 1950, responding to petitions from
Guam’s inhabitants, Congress passed the Organic Act
of Guam. Pub. L. No. 81-630, 64 Stat. 384 (1950)
(codified at 48 U.S.C. §§ 1421-24) (“Organic Act”).
The Organic Act (1) designated Guam as an
unincorporated territory of the United States subject
to Congress’s plenary power, 48 U.S.C. § 1421a; (2)
established executive, legislative, and judicial
branches of government for the Territory, id. §§ 142224, as well as a limited Bill of Rights modeled after
portions of the Bill of Rights in the Federal

App-4
Constitution, id. § 1421b; 2 and (3) extended U.S.
citizenship to three categories of people:
(a)(1): All inhabitants of the island of Guam
on April 11, 1899, including those temporarily
absent from the island on that date, who were
Spanish subjects, who after that date
continued to reside in Guam or other territory
over which the United States exercises
sovereignty, and who have taken no
affirmative steps to preserve or acquire
foreign nationality[, and their children.]
(a)(2): All persons born in the island of Guam
who resided in Guam on April 11, 1899,
including those temporarily absent from the
island on that date, who after that date
continued to reside in Guam or other territory
over which the United States exercises
sovereignty, and who have taken no
affirmative steps to preserve or acquire
foreign nationality[, and their children.]
(b): All persons born in the island of Guam on
or after April 11, 1899 . . . Provided, That in
the case of any person born before the date of
enactment of [the Organic Act], he has taken
no affirmative steps to preserve or acquire
foreign nationality.

2 Absent an act of Congress, federal constitutional rights do not
automatically apply to unincorporated territories. Guerrero, 290
F.3d at 1214. In 1968, Congress amended the Organic Act to
extend certain federal constitutional rights to Guam, including
the Fifteenth Amendment. See 48 U.S.C. § 1421b(u).

App-5
8 U.S.C. § 1407 (1952), repealed by Pub. L. No. 82-414,
§§ 101(a)(38), 301(a)(1) 66 Stat. 163, 171, 235 (1952)
(codified at 8 U.S.C. §§ 1101(a)(38), 1401(a)).
According to the 1950 Census—which derived its
racial categories from “that which is commonly
accepted by the general public”—the Chamorro
population comprised the single largest racial group in
Guam at the time (45.6%). See U.S. Bureau of the
Census, Census of Population: 1950, Vol. II at 54-46
tbl. 36 (1953) (“1950 Census”). The second largest
racial group was White (38.5%), and the rest of the
population was Filipino, Chinese, or other races.
Virtually all non-Chamorro people residing in the
Territory were either already U.S. citizens (99.4% of
all Whites were U.S. citizens) or were born outside the
jurisdiction of the United States and therefore likely
not citizens by authority of the Organic Act (e.g.,
94.4% of Filipinos were non-citizens). As of 1950,
98.6% of all non-citizens in Guam were Chamorro. Id.
at 54-49 tbl. 38.
The citizenship provisions of the Organic Act were
in force for less than two years. In 1952, Congress
enacted the Immigration and Nationality Act of 1952
(“INA”), which, among other things, repealed the
citizenship provisions of the Organic Act, see Pub. L.
No. 82-414, § 403(a)(42), 66 Stat. 163, 280, and
conferred U.S. citizenship on all persons born in Guam
after passage of the new INA. See id. §§ 101(a)(38),
301(a)(1), 66 Stat. 163, 171, 235 (codified at 8 U.S.C.
§§ 1101(a)(38), 1401(a)).
In the decades following passage of the Organic
Act, some of Guam’s inhabitants continued to
advocate for more political autonomy. Those efforts

App-6
eventually resulted in, among other things, “An Act to
Establish the Chamorro Registry,” enacted by the
Guam legislature in 1996. Guam Pub. L. No. 23-130,
§1 (codified as amended at 3 Guam Code Ann.
§§18001-31) (“Registry Act”), repealed in part by
Guam Pub. L. No. 25-106 (2000). The Registry Act
created a registry of “Chamorro individuals, families,
and their descendants.” Id. § 1. It referred to the
“Chamorro” as the “indigenous people of Guam” who
possess “a distinct language and culture.” Id. 3 The
Act’s stated purpose was for the registry to “assist in
the process of heightening local awareness among the
people of Guam of the current struggle for
Commonwealth, of the identity of the indigenous
Chamorro people of Guam, and of the role that
Chamorros and succeeding generations play in the
3

Another section of the Registry Act defined “Chamorro”:

(a) Chamorro means those persons defined by the U.S.
Congress in Section IV of the organic Act of Guam . . . and
their descendants:
(1) All inhabitants of the island of Guam on April 11, 1899,
including those temporarily absent from the island on that
date, who were Spanish subjects, who after that date
continued to reside in Guam or other territory over which
the United States exercises sovereignty, and have taken no
affirmative steps to preserve or acquire foreign nationality;
and
(2) All persons born in the island of Guam, who resided in
Guam on April 11, 1899, including those temporarily
absent from the island on that date, who after that date
continued to reside in Guam or other territory over which
the United States exercises sovereignty, and who have
taken no affirmative steps to preserve or acquire foreign
nationality.
Registry Act § 20001(a).

App-7
island’s cultural survival and in Guam’s political
evolution towards self-government.” Id.
One year later, the Guam legislature established
the “Commission on Decolonization for the
Implementation and Exercise of Chamorro SelfDetermination,” Guam Pub. L. No. 23-147 (1997)
(codified at 1 Guam Code Ann. §§ 2101-15) (“1997
Plebiscite Law”), repealed in part by Guam Pub. L.
No. 25-106 (2000). The Legislature established the
Commission on Decolonization “in the interest of the
will of the people of Guam, desirous to end colonial
discrimination and address long-standing injustice of
[the Chamorro] people.” Id. § 1. The purpose of the
Commission on Decolonization was to “ascertain the
desire of the Chamorro people of Guam as to their
future political relationship with the United States.”
Id. § 5. It was charged with writing position papers on
the political status options for Guam and with
conducting a public information campaign based on
those papers. Id. §§ 6-9. The 1997 Plebiscite Law also
called for a “political status plebiscite” during the next
primary election, in which voters would be asked:
In recognition of your right to selfdetermination, which of the following
political status options do you favor?
1.

Independence

2.

Free Association

3.

Statehood

Id. § 10. Voting in the plebiscite was to be limited to
“Chamorro People,” defined as “[a]ll inhabitants of
Guam in 1898 and their descendants who have taken
no affirmative steps to preserve or acquire foreign

App-8
nationality.” Id. §§ 2(b), 10. The Commission on
Decolonization was then directed to “transmit [the
results of the plebiscite] to the President and Congress
of the United States and the Secretary General of the
United Nations.” Id. § 5.
Before the planned date of the self-determination
plebiscite, the Supreme Court in Rice v. Cayetano
invalidated a Hawaii law restricting the right to vote
in certain elections to “Hawaiians,” defined as the
descendants of people inhabiting the Hawaiian
Islands in 1778. 528 U.S. at 499. A month after Rice
was decided, the Guam legislature enacted the law at
issue in this case. Guam Pub. L. No. 25-106 (2000)
(codified at 3 Guam Code Ann. §§ 21000-31, 1 Guam
Code Ann. §§ 2101-15) (“2000 Plebiscite Law”).
The 2000 Plebiscite Law contains several
interrelated provisions: First, it leaves the Registry
Act intact and creates a separate “Guam
Decolonization Registry” in which those voters
qualified for the new political status plebiscite would
be listed. 4 3 Guam Code Ann. §§ 21000, 21026. Those
The 2000 Plebiscite Law modified the definition of
“Chamorro” in the Registry Act, to the following:
4

(a)

‘Chamorro’ shall mean:

(1) all inhabitants of the Island of Guam on April 11, 1899,
including those temporarily absent from the Island on that
date and who were Spanish subjects; and
(2) all persons born on the Island of Guam prior to 1800,
and their descendants, who resided on Guam on April 11,
1899, including those temporarily absent from the Island
on that date, and their descendants;
(i) ‘descendant’ means a person who has proceeded by
birth, such as a child or grandchild, to the remotest

App-9
qualified to register, and therefore to vote, in the
plebiscite must be “Native Inhabitants of Guam,”
defined as “those persons who became U.S. Citizens by
virtue of the authority and enactment of the 1950
Organic Act of Guam and descendants of those
persons.” Id. § 21001(e).
Second, the 2000 Plebiscite Law retains the
Commission on Decolonization but amends portions of
the 1997 Plebiscite Law to replace all references to
“Chamorro” with “Native Inhabitants of Guam.” 1
Guam Code Ann. §§ 2101-02, 2104-05, 2110. As
revised, the law establishing a new plebiscite
provides:
The general purpose of the Commission on
Decolonization shall be to ascertain the intent
of the Native Inhabitants of Guam as to their
future political relationship with the United
States of America. Once the intent of the
Native Inhabitants of Guam is ascertained,
the Commission shall promptly transmit that
desire to the President and the Congress of
the United States of America, and to the
Secretary General of the United Nations.
Id. § 2105.
Finally, the 2000 Plebiscite Law states that “[t]he
intent of [the law] shall not be construed nor
implemented by the government officials effectuating
degree, from any ‘Chamorro’ as defined above, and who
is considered placed in a line of succession from such
ancestor where such succession is by virtue of blood
relations.
2000 Plebiscite Law § 12.

App-10
its provisions to be race based, but founded upon the
classifications of persons as defined by the U.S.
Congress in the 1950 Organic Act of Guam.” 3 Guam
Code Ann. § 21000. Rather, the intent of the law is “to
permit the native inhabitants of Guam, as defined by
the U.S. Congress’ 1950 Organic Act of Guam to
exercise the inalienable right to self-determination of
their political relationship with the United States of
America,” as that “right has never been afforded.” Id.
One subsequent amendment to the plebiscite
relevant to this case followed. In 2010, the Guam
legislature passed a law providing that individuals
who received or had been preapproved for a Chamorro
Land Trust Commission (“CLTC”) property lease
would be automatically registered in the Guam
Decolonization Registry. Guam Pub. L. No. 30-102,
§ 21002.1 (codified at 3 Guam Code Ann. § 21002.1).
The CLTC was created in 1975 to administer leases
for lands that the United States had seized from Guam
inhabitants during and after World War II and had
later returned to the Guam government. See Guam
Pub. L. 12-226 (codified as amended at 21 Guam Code
Ann. §§ 75101-75125). Persons eligible to receive
CLTC leases must be “Native Chamorros,” defined as
“any person who became a U.S. citizen by virtue of the
authority and enactment of the Organic Act of Guam
or descendants of such person.” 21 Guam Code Ann.
§§ 75101(d), 75107(a).
Arnold Davis, a non-Chamorro resident of Guam,
sought to register for the Guam Decolonization
Registry and thereby to qualify as a voter in the
plebiscite. He was denied registration because he did
not meet the definition of “Native Inhabitant of

App-11
Guam.” Davis filed suit in 2011, challenging the 2000
Plebiscite Law on grounds that it violated the
Fourteenth and Fifteenth Amendments of the
Constitution, the Voting Rights Act of 1965, and the
Organic Act.
At the time the suit was filed, the plebiscite had
not yet occurred, and no date was set for it to take
place. Davis v. Guam, Civil Case No. 11-00035, 2013
WL 204697, *2-3 (D. Guam 2013) (“Davis I”). Relying
on the uncertain timing of the plebiscite, the district
court initially dismissed the case for lack of standing
and ripeness. Id. at *9. We reversed that dismissal on
appeal, holding that Davis’s alleged unequal
treatment was a sufficient injury to establish standing
and that his claim was ripe because he adequately
alleged that he was “currently being denied equal
treatment under Guam law.” Davis v. Guam, 785 F.3d
1311, 1315-16 (9th Cir. 2015) (“Davis II”).
After remand to the district court the parties filed
cross-motions for summary judgment. The district
court granted Davis’s motion for summary judgment
and permanently enjoined Guam from conducting a
plebiscite restricting voters to Native Inhabitants of
Guam. Davis v. Guam, No. CV 11-00035, 2017 WL
930825, at *1 (D. Guam 2017) (“Davis III”).
The district court concluded, first, that the
plebiscite was an election for Fifteenth Amendment
purposes because the result of the vote would decide a
public issue. Id. at *11. Next, the court determined
that although “Native Inhabitants of Guam” is not an
explicit racial classification, the history and structure
of the 2000 Plebiscite Law reveal that “the very object
of the statutory definition in question here . . . is to

App-12
treat the Chamorro people as a ‘distinct people.’” Id. at
*8 (quoting Rice, 528 U.S. at 515). The 2000 Plebiscite
Law therefore used “ancestry as a proxy for race,” the
district court held, in violation of the Fifteenth
Amendment. Id.
The court also decided that the 2000 Plebiscite
Law violated the Equal Protection Clause of the
Fourteenth Amendment. Applying strict scrutiny, the
court held the law was not narrowly tailored to a
compelling state interest as all inhabitants of Guam,
not just its “Native Inhabitants,” have an interest in
the results of the plebiscite. Id. at *12-*14. The district
court concluded that less restrictive alternatives exist,
including “conducting a poll with the assistance of the
University of Guam.” Id. at *14.
This appeal followed. “We review a district court’s
decision on cross motions for summary judgment de
novo.” Commonwealth Election Comm’n, 844 F.3d at
1091.
II
Congress has provided that the Fifteenth
Amendment “shall have the same force and effect [in
Guam] as in the United States.” 48 U.S.C. § 1421b(u);
accord Davis II, 785 F.3d at 1314 n.2. That
Amendment provides: “The right of citizens of the
United States to vote shall not be denied or abridged
by the United States or by any State on account of
race, color, or previous condition of servitude.” U.S.
Const. amend. XV, § 1. The Fifteenth Amendment is
“comprehensive in reach,” and applies to “any election
in which public issues are decided or public officials
selected.” Rice, 528 U.S. at 512, 523 (quoting Terry v.
Adams, 345 U.S. 461, 468 (1953)).

App-13
Guam argues that the Fifteenth Amendment is
inapplicable to the plebiscite because that vote will not
decide a public issue. It notes that the 2000 Plebiscite
Law requires Guam to transmit the results of the
plebiscite to Congress, the President, and the United
Nations but will not, itself, create any change in the
political status of the Territory. That is so. But,
despite its limited immediate impact, the results of the
planned plebiscite commit the Guam government to
take specified actions and thereby constitute a
decision on a public issue for Fifteenth Amendment
purposes.
We begin by noting that any suggestion that the
Fifteenth Amendment be read restrictively should be
viewed with skepticism. The right to vote is
foundational in our democratic system. See Kramer v.
Union Free Sch. Dist. No. 15, 395 U.S. 621, 626 (1969);
Harper v. Va. State Bd. of Elections, 383 U.S. 663, 667
(1966); Reynolds v. Sims, 377 U.S. 533, 555 (1964).
Protecting the franchise is “preservative of all rights,”
because the opportunity to participate in the
formation of government policies defines and enforces
all other entitlements. Yick Wo v. Hopkins, 118 U.S.
356, 370 (1886). “Other rights, even the most basic, are
illusory if the right to vote is undermined.” Wesberry
v. Sanders, 376 U.S. 1, 17 (1964). For that reason, the
Fifteenth Amendment is “comprehensive in reach.”
Rice, 528 U.S. at 512. The text of the Fifteenth
Amendment states broadly that the right “to vote”
shall not be denied. U.S. Const. amend. XV, § 1. It does
not qualify the meaning of “vote” in any way. In light
of the text and the unique importance of the Fifteenth
Amendment, where there is any doubt about the

App-14
Fifteenth Amendment’s boundaries we err on the side
of inclusiveness.
We have no need here to define the precise
contours of what it means to “decide” a “public issue”
under the Fifteenth Amendment. See Rice, 528 U.S. at
523. It is at least clear that the Amendment includes
any government-held election in which the results
commit a government to a particular course of action.
That requirement is met here.
First, the issue the 2000 Plebiscite Law would
decide is public in nature. A basic premise of our
representative democracy is “the critical postulate
that sovereignty is vested in the people.” U.S. Term
Limits, Inc. v. Thornton, 514 U.S. 779, 794 (1995).
Because the government “derives all its powers
directly or indirectly from the great body of the
people,” The Federalist No. 39, at 241 (James
Madison) (Clinton Rossiter ed., 1961), the government
necessarily exercises authority on behalf of the public
when it acts. In that sense, its actions are of public
concern.
The
Supreme
Court
acknowledged
this
foundational principle in Terry v. Adams, which
addressed a related question—whether an election
held by a private organization constituted state action
for purposes of the Fifteenth Amendment. Terry held
that the Jaybird Democratic Association’s primary
elections, which functionally determined the
Democratic Party’s candidates for public office in a
Texas county, violated the Fifteenth Amendment by
excluding black voters. 345 U.S. at 470 (plurality
opinion). The Court concluded that although the
Jaybird primaries were private in the sense that they

App-15
were conducted by a private entity, they served a
public function because they chose candidates for
public office. The Jaybird primaries were therefore
covered by the Fifteenth Amendment. Id. at 469-70.
A plurality of the Court explained this conclusion
as follows: “Clearly the [Fifteenth] Amendment
includes any election in which public issues are
decided or public officials selected. Just as clearly the
Amendment excludes social or business clubs.” Id. at
468-69. Decades later, the Rice majority adopted the
formulation of the Terry plurality—that the Fifteenth
Amendment applies to “any election in which public
issues are decided or public officials selected.” 528 U.S.
at 523 (quoting Terry, 345 U.S. at 468). This focus is
confirmed by another passage in the Terry plurality
opinion on which Rice relied. That passage specified
that the Fifteenth Amendment establishes a right “not
to be discriminated against as voters in elections to
determine public governmental policies or to select
public officials, national, state, or local.” Id. at 514
(emphasis added) (quoting Terry, 528 U.S. at 467).
In this case, the 2000 Plebiscite Law prescribes
that
the
Commission
on
Decolonization—a
governmental
body—will
make
an
official
transmission to Congress, the President, and the
United Nations, and the results of the plebiscite will
determine the content of the message transmitted. See
1 Guam Code Ann. § 2105. What a governmental body
will communicate to other governmental entities is
assuredly a “public issue”—a matter of “governmental
polic[y].” Terry, 345 U.S. at 467-68.
Second, the election called for by the 2000
Plebiscite Law commits Guam to a particular course

App-16
of action: A governmental commission with prescribed
duties would be bound to transmit the result of the
plebiscite to the federal government and to the United
Nations. By requiring the transmission of the
plebiscite results, the 2000 Plebiscite Law mandates
that the Commission on Decolonization take a public
stance in support of the result. 3 Guam Ann. Code
§ 21000 (“It is the purpose of this legislation to seek
the desires to those peoples who were given citizenship
in 1950 and to use this knowledge to further petition
Congress and other entities to achieve the stated
goals.”). So, regardless of whether the result of the
plebiscite ultimately affects the political status of
Guam, the plebiscite will “decide” a public issue—
what position a governmental entity will advocate
before domestic and international bodies.
The plebiscite therefore will both concern a
“public issue”—Guam’s official communication with
other governmental bodies—and “decide” it, in that it
will commit a governmental body to communicate the
position determined by the plebiscite. Given these two
features, the election is, under Rice, subject to the
Fifteenth Amendment’s protection against racial
restrictions on the right to vote.
Were this plebiscite not covered by the Fifteenth
Amendment, the scope of the Amendment’s
prohibition on race-based voting restrictions in
elections would be significantly narrowed. Elections
regularly require a governmental body to take a
stance on issues even though there may be no on-theground changes in policy. For example, state
initiatives sometimes authorize permission to make a
policy change, but the actual policy change is

App-17
contingent on future occurrences. See, e.g., Proposition
7, Assemb. B. 807, 2017-2018 Leg., Reg. Sess. (Cal.
2018) (allowing the state legislature to vote to change
daylight savings time, if the change is allowed by the
federal government). 5 Moreover, in presidential
elections, political parties in several states employ
nonbinding primaries, in which primary voters may
express their preference for a candidate but the
delegates to a party’s national convention are not,
technically, bound by that preference. See Nathaniel
Persily, Candidates v. Parties: The Constitutional
Constraints on Primary Ballot Access Laws, 89 Geo.
L.J. 2181, 2219 n.127 (2001). 6 Concluding that the
Fifteenth Amendment only applies to elections
triggering an immediate substantive action would
exempt a broad category of elections from Fifteenth
Amendment protection.

State statutory and constitutional limits govern what
propositions can be the subject of state initiatives or referenda.
See, e.g., Am. Fed’n of Labor v. Eu, 36 Cal. 3d 687, 703 (1984)
(holding that a state initiative requiring the legislature to enact
a resolution which did not itself change California law exceeded
scope of the initiative power under the California Constitution);
Harper v. Waltermire, 213 Mont. 425, 428 (1984) (same with
respect to Montana initiative under the Montana Constitution).
Those limits are distinct from the question of whether the
Fifteenth Amendment applies if an initiative or referendum is
held.
5

6 We do not decide whether these elections are definitively
subject to the requirements of the Fifteenth Amendment. We
note them only as examples of the type of elections that might be
affected if the Fifteenth Amendment applied only to elections
that triggered immediate substantive outcomes.

App-18
We hold that Guam’s 2000 Plebiscite Law is
subject to the requirements of the Fifteenth
Amendment.
III.
We turn to the core of the Fifteenth Amendment
issue: Does the 2000 Plebiscite Law deny citizens the
right to vote “on account of race?” U.S. Const. amend
XV, § 1. 7
The Fifteenth Amendment’s prohibition on racebased voting restrictions is both fundamental and
absolute. See Shaw v. Reno, 509 U.S. 630, 639 (1993).
As “[t]here is no room under the Amendment for the
concept that the right to vote in a particular election
can be allocated based on race,” the levels of scrutiny
applied to other constitutional restrictions are not
pertinent to a race-based franchise limitation. Rice,
528 U.S. at 523 (emphasis added). This clear-cut rule
reflects the importance of the franchise as “the essence
of a democratic society” and recognizes that “any
restrictions on that right strike at the heart of
representative government.” Reynolds, 377 U.S. at
555.
Moreover, the Fifteenth Amendment applies with
equal force regardless of the particular racial group
We address only the constitutionality of the plebiscite under
Section 1 of the Fifteenth Amendment. Our opinion affects
neither Congress’s power under Section 2 to enact appropriate
legislation enforcing the Amendment nor the analysis of voting
restrictions under the Fourteenth Amendment, which may be
subject to heightened scrutiny rather than an absolute bar. See,
e.g., Harper, 383 U.S. at 667 (holding that poll taxes in elections
must be “carefully and meticulously scrutinized” under the Equal
Protection Clause (citation omitted)).
7

App-19
targeted by the challenged law. Although originally
enacted to guarantee emancipated slaves the right to
vote after the Civil War, the generic language of the
Fifteenth Amendment “transcend[s] the particular
controversy which was the immediate impetus for its
enactment.” Rice, 528 U.S. at 512. The Amendment’s
prohibition on racial discrimination “grants protection
to all persons, not just members of a particular race.”
Id. Its “mandate of neutrality” is thus straightforward
and universal: “If citizens of one race having certain
qualifications are permitted by law to vote, those of
another having the same qualifications must be”
permitted to vote as well. Id. (quoting United States v.
Reese, 92 U.S. 214, 218 (1875)).
Determining whether a law discriminates “on
account of race” is not, however, always
straightforward. Voting qualifications that, by their
very terms, draw distinctions based on racial
characteristics are of course prohibited. See Nixon v.
Herndon, 273 U.S. 536 (1927); South Carolina v.
Katzenbach, 383 U.S. 301, 325 (1966) (collecting
cases). But “[t]he (Fifteenth) Amendment nullifies
sophisticated as well as simple-minded modes of
discrimination.” Gomillion v. Lightfoot, 364 U.S. 339,
342 (1960) (quoting Lane v. Wilson, 307 U.S. 268, 275
(1939)). So, in addition to facial racial distinctions,
classifications that are race neutral on their face but
racial by design or application violate the Fifteenth
Amendment.
The well-established hallmarks of such
discrimination for constitutional purposes are
discriminatory intent, see Reno v. Bossier Par. Sch.
Bd., 520 U.S. 471, 481-82 (1997); City of Mobile v.

App-20
Bolden, 446 U.S. 55, 62-63 (1980) (plurality opinion),
and discriminatory implementation, see Lassiter v.
Northampton Cty. Bd. of Elections, 360 U.S. 45, 53
(1959) (“Of course a literacy test, fair on its face, may
be employed to perpetuate that discrimination which
the Fifteenth Amendment was designed to uproot.”).
One category of facially neutral restrictions that
runs afoul of the Fifteenth Amendment is a
classification so closely intertwined with race that it is
a “proxy for race,” as the Supreme Court found to be
the case in Rice, 528 U.S. at 514. Rice addressed a
voting qualification in statewide elections for the
trustees of the Office of Hawaiian Affairs, a state
agency that administers programs for the benefit of
descendants of Native Hawaiians. Id. at 498-99. The
Hawaii Constitution limited voting in those elections
to “Hawaiians,” defined by statute as “any descendant
of the aboriginal peoples inhabiting the Hawaiian
Islands which exercised sovereignty and subsisted in
the Hawaiian Islands in 1778, and which peoples
thereafter have continued to reside in Hawaii.” Id. at
509 (quoting Haw. Rev. Stat. § 10-2). Rice held that
the Hawaiian voting restriction was racial “in purpose
and operation.” Id. at 516. It reasoned as follows:
Ancestry can be a proxy for race. It is that
proxy here. . . . For centuries Hawaii was
isolated from migration. The inhabitants
shared common physical characteristics, and
by 1778 they had a common culture. Indeed,
the drafters of the statutory definition in
question emphasized the “unique culture of
the ancient Hawaiians” in explaining their
work. The provisions before us reflect the

App-21
State’s effort to preserve that commonality of
people to the present day. In the
interpretation of the Reconstruction era civil
rights laws we have observed that “racial
discrimination” is that which singles out
“identifiable classes of persons . . . solely
because of their ancestry or ethnic
characteristics.” Saint Francis Coll. v. AlKhazraji, 481 U.S. 604, 613 (1987). The very
object of the statutory definition in question
and of its earlier congressional counterpart in
the Hawaiian Homes Commission Act is to
treat the early Hawaiians as a distinct
people, commanding their own recognition
and respect. The State, in enacting the
legislation before us, has used ancestry as a
racial definition and for a racial purpose.
Id. at 514-15 (second alteration in original) (citations
omitted).
To confirm its conclusion, Rice looked to the
history of the “Hawaiian” definition at issue and
determined that previously proposed versions of the
qualification had expressly referred to “Hawaiians” as
a race. Id. at 515-516. The Court concluded that
removal of the “race” reference did not change the
classification of individuals allowed to vote in the
election. The voter qualification therefore remained
race-based although it no longer proclaimed as such.
Id. at 516. Rice provides key guidance for determining
whether the 2000 Plebiscite Law’s restriction of the
vote to “Native Inhabitants of Guam” is race-based.

App-22
A
Our first inquiry is whether, as Davis maintains,
Rice held all classifications based on ancestry to be
impermissible proxies for race. It did not.
The Supreme Court selected its words carefully
when it struck down the voting restrictions at issue in
Rice. It stated that “[a]ncestry can be a proxy for race”
in the context of the Fifteenth Amendment, not that it
always is. Id. at 514 (emphasis added).
The Court’s determination that the challenged
voting qualification’s use of ancestry “is that proxy
here,” id., rested on the historical and legislative
context of the particular classification at issue, not on
the categorical principle that all ancestral
classifications are racial classifications. The Court
focused specifically on the fact that in 1778, the
individuals inhabiting the Hawaiian Islands were a
“distinct people” with common physical characteristics
and shared culture. Id. at 515. Limiting the franchise
to descendants of that distinct people, the Court
reasoned, singled out individuals for special treatment
based on their “ethnic characteristics and cultural
traditions.” Id. at 515, 517. Rice buttressed that
conclusion with evidence from the legislative history
of the challenged statute, which referred to
“Hawaiians” as a “race.” Id. at 516. In other words, the
Court recognized that ancestral tracing can be a
characteristic of a racial classification, but is not itself
always sufficient to identify such a classification. And
it concluded that the ancestral classification at issue
was problematic because it operated as a race-based
voting restriction. If the Court had meant to suggest
that all classifications based on ancestry were

App-23
impermissible, it would have had no need to examine
the unique history of the descendants allowed to vote
under the challenged law.
Davis contends that one sentence in Rice indicates
otherwise—that all ancestry classifications are
impermissible
racial
classifications:
“‘[R]acial
discrimination’ is that which singles out ‘identifiable
classes of persons . . . solely because of their ancestry
or ethnic characteristics.’” Id. at 515 (second alteration
in original) (quoting Saint Francis Coll., 481 U.S. at
613). But that interpretation wrenches the sentence in
Rice from its context. Rice quoted Saint Francis Coll.
to support its conclusion that the specific classification
at issue in Rice was a racial classification. 8 After an
Saint Francis Coll. does not suggest that all ancestral
classifications are racial ones either. That case addressed
whether discrimination based specifically on “Arabian ancestry”
constituted racial discrimination for purposes of 42 U.S.C.
§ 1981. 481 U.S. at 607. After recounting the legislative history
of § 1981 and the understanding of race at the time the statute
was passed in 1870, the Court concluded the following:
8

Based on the history of § 1981, we have little trouble in
concluding that Congress intended to protect from
discrimination identifiable classes of persons who are
subjected to intentional discrimination solely because of their
ancestry or ethnic characteristics. Such discrimination is
racial discrimination that Congress intended § 1981 to
forbid, whether or not it would be classified as racial in terms
of modern scientific theory. [Section] 1981, at a minimum,
reaches discrimination against an individual because he or
she is genetically part of an ethnically and physiognomically
distinctive sub-grouping of homo sapiens. It is clear from our
holding, however, that a distinctive physiognomy is not
essential to qualify for § 1981 protection.
Id. at 613 (footnotes and internal quotation marks omitted).

App-24
exhaustive account of Hawaii’s history, the Court
determined that the voter eligibility classification
singled out persons solely because of their ancestral
relationship to a culturally and ethnically distinct
population, and went on to conclude that “[a]ncestral
tracing of this sort achieves its purpose by creating a
legal category which employs the same mechanisms,
and causes the same injuries, as laws or statutes that
use race by name.” Id. at 517 (emphasis added).
Nowhere did the Court suggest that classification by
ancestry alone was sufficient to render the challenged
classification a racial one.
B
Rice did not go on to explain further the
connection between ancestry and race, or to explain
what it meant by “ethnic characteristics and cultural
traditions.” Id. And modern courts have generally
resisted defining with precision the legal concept of
race and more specifically, the relationship between
ancestry and the legal concept of race.
Racial categories were once thought to be
grounded
in
biological
fact,
but
shifting
understandings of which groups constitute distinct
races throughout history reveal such categories to be
“social construct[s],” the boundaries of which are
subject to contestation and revision. Ho ex rel. Ho v.
S.F. Unified Sch. Dist., 147 F.3d 854, 863 (9th Cir.
1998); see also Saint Francis Coll., 481 U.S. at 610 n.4;
United States v. Nelson, 277 F.3d 164, 176 n.12 (2d
Cir. 2002). 9 Still, as a legal concept, a racial category
9 Examples of this contestation and revision have at times
reached our highest court. In the early twentieth century, the
Supreme Court decided a number of cases delineating who

App-25
is generally understood as a group, designated by
itself or others, as socially distinct based on perceived
common physical, ethnic, or cultural characteristics.
So, for example, Abdullahi v. Prada USA Corp. stated
that “[a] racial group as the term is generally used in
the United States today is a group having a common
ancestry and distinct physical traits,” 520 F.3d 710,
712 (7th Cir. 2008), a definition also reflected in a
federal statute outlawing genocide. See 18 U.S.C.
§ 1093(6) (“[T]he term ‘racial group’ means a set of
individuals whose identity as such is distinctive in
terms of physical characteristics or biological
descent.”). Saint Francis Coll. held that racial
discrimination includes discrimination based on
“ethnic characteristics,” 481 U.S. at 612-613, and Rice
emphasized that the “unique culture of the ancient
Hawaiians,” combined with their common ancestry—
that is, biological descent—distinguished them as a

qualified as white and were therefore afforded its privileges. In
Ozawa v. United States, 260 U.S. 178 (1922), the Court held that
a man of the “Japanese race born in Japan” was not a “white
person” and therefore was not qualified to be naturalized under
the country’s then-racially restrictive naturalization laws. It
reasoned that the term “white person” was synonymous with the
“Caucasian race.” Id. at 189, 197-98. A year later, the Court,
however, held that a man of South Asian descent born in India
did not qualify as a “white person” despite acknowledging that
many scientific authorities at the time considered South Asians
to be members of the Caucasian race. United States v. Thind, 261
U.S. 204, 210-15 (1923); see also Gong Lum v. Rice, 275 U.S. 78
(1927) (upholding a state court ruling requiring an American
citizen of Chinese descent to attend school for “colored” children
and not for white children).

App-26
race. 528 U.S. at 514-15. 10 These various concepts
remain somewhat distinct, but all embrace the core
concept of a group of people distinguished based on
certain identifiable traits.
Just as race is a difficult concept to define, so is
ancestry’s precise relationship to race. Ancestry
identifies individuals by biological descent. See
Ancestry, Black’s Law Dictionary (10th ed. 2014) (“A
line of descent; collectively, a person’s forebears;
lineage.”); Ancestor, Oxford English Dictionary (2d ed.
1989) (“One from whom a person is descended, either
by the father or mother; a progenitor, a forefather.”).
Racial categories often incorporate biological descent,
as the mechanism through which present day
individuals viewed as a distinct group are thought to
be connected to an earlier set of individuals with
identifiable
physical,
ethnic,
or
cultural
characteristics. For example, state laws mandating
the enslavement and later segregation and
subjugation of African Americans identified them by
See also Hernandez v. State of Tex., 347 U.S. 475, 478 (1954)
(“Throughout our history differences in race and color have
defined easily identifiable groups which have at times required
the aid of the courts in securing equal treatment under the laws.
But community prejudices are not static, and from time to time
other differences from the community norm may define other
groups which need the same protection. Whether such a group
exists within a community is a question of fact.”); D. Wendy
Greene, Title VII: What’s Hair (and Other Race-Based
Characteristics) Got to Do With It?, 79 U. Colo. L. Rev. 1355, 1385
(2008) (“Race includes physical appearances and behaviors that
society, historically and presently, commonly associates with a
particular racial group, even when the physical appearances and
behavior are not ‘uniquely’ or ‘exclusively’ ‘performed’ by, or
attributed to a particular racial group.”).
10

App-27
the percentage of blood they possessed from African
American ancestors. See, e.g., Loving v. Virginia, 388
U.S. 1, 5 n.4 (1967); Plessy v. Ferguson, 163 U.S. 537,
552 (1896); Neil Gotanda, A Critique of “Our
Constitution Is Color-Blind,” 44 Stan. L. Rev. 1, 24
n.94 (1991). Until 1952, Congress imposed racial
restrictions on who could be naturalized as citizens.
See 8 U.S.C. § 703 (repealed 1952). Among those
eligible for naturalization were “white persons,
persons of African nativity or descent, and persons
who are descendants of races indigenous to the
continents of North or South America,” as well as
those with a “preponderance of blood” from those
groups. Id. § 703(a)(1), (2). Race and ancestry thus
frequently overlap or are treated as equivalents by
courts. See, e.g., Hirabayashi v. United States, 320
U.S. 81, 100 (1943) (“Distinctions between citizens
solely because of their ancestry are by their very
nature odious to a free people whose institutions are
founded upon the doctrine of equality. For that reason,
legislative classification or discrimination based on
race alone has often been held to be a denial of equal
protection.”).
But ancestry and race are not identical legal
concepts. State and federal laws are replete with
provisions that target individuals based on biological
descent without reflecting racial classifications. These
include laws of intestate succession, see, e.g., Ariz.
Rev. Stat. § 14-2103 (requiring passing of property
based on lineage in the absence of a surviving spouse);
Cal. Prob. Code §§ 240, 6402 (same); Unif. Prob. Code
§ 2-103 (Nat’l Conference of Comm’rs on Unif. State
Laws 2010) (same); see also Hodel v. Irving, 481 U.S.
704, 716 (1987) (“In one form or another, the right to

App-28
pass on property—to one’s family in particular—has
been part of the Anglo-American legal system since
feudal times.”); citizenship, see, e.g., 8 U.S.C. §§ 1431,
1433 (conferring citizenship on children born outside
the United States if at least one parent is a U.S.
citizen); id. § 1153 (immigrant visa preferences for
children of U.S. citizens and lawful permanent
residents); and child custody laws, see, e.g., Haw. Rev.
Stat. § 571-46(7) (providing visitation privileges for
“parents, grandparents, and siblings” of child). As
Justice Stevens observed in his dissent in Rice, “There
would be nothing demeaning in a law that established
a trust to manage Monticello and provided that the
descendants of Thomas Jefferson should elect the
trustees.” 528 U.S. at 545 & n.16. 11
Moreover, the Supreme Court has squarely
rejected any categorical equivalence between ancestry
and racial categorization. Morton v. Mancari, 417 U.S.
535 (1974), upheld a Bureau of Indian Affairs hiring
preference for “Indians,” defined as an individual
possessing “one-fourth or more degree Indian blood
and be a member of a Federally-recognized tribe.” 417
U.S. at 553 n.24. Although the hiring preference
classified individuals based on biological ancestry, the
Supreme Court concluded that the classification was
“political rather than racial in nature.” Id. Mancari
determined that the hiring preference treated
“Indians not as a discrete racial group, but, rather, as
members of quasi-sovereign tribal entities,” stressing
11 See also Sarah Krakoff, They Were Here First: American
Indian Tribes, Race, and the Constitutional Minimum, 69 Stan.
L. Rev. 491, 496 n.21 (2017) (collecting “laws [that] recognize and
honor ancestry” outside the Indian law context).

App-29
the “unique legal status of Indian tribes under federal
law and . . . the plenary power of Congress, based on a
history of treaties and the assumption of a ‘guardianward’ status, to legislate on behalf of federally
recognized Indian tribes.” Id. at 551, 554.
Since Mancari, the Supreme Court and our court
have reaffirmed ancestral classifications related to
American Indians without suggesting that they
constitute racial classifications. See Del. Tribal Bus.
Comm. v. Weeks, 430 U.S. 73, 79 n.13, 89 (1977);
United States v. Zepeda, 792 F.3d 1103, 1110 (9th Cir.
2015) (en banc); see also Doe v. Kamehameha
Schs./Bernice Pauahi Bishop Estate, 470 F.3d 827,
851-52 (9th Cir. 2006) (en banc) (Fletcher, J.,
concurring) (listing federal laws concerning Indians
that rely on ancestry); Krakoff, supra, at 501
(explaining that American Indian tribal status
“assumes ancestral ties to peoples who preceded
European (and then American) arrival”). This wellsettled law regarding classifications of American
Indians confirms that not all ancestral classifications
are racial ones.
In sum, biological descent or ancestry is often a
feature of a race classification, but an ancestral
classification is not always a racial one.
C
That ancestry is not always a proxy for race does
not mean it never is.
We have previously outlined the contours of proxy
discrimination
when
addressing
statutory
discrimination claims:

App-30
Proxy discrimination is a form of facial
discrimination. It arises when the defendant
enacts a law or policy that treats individuals
differently on the basis of seemingly neutral
criteria that are so closely associated with the
disfavored group that discrimination on the
basis of such criteria is, constructively, facial
discrimination against the disfavored group.
For
example,
discriminating
against
individuals with gray hair is a proxy for age
discrimination because “the ‘fit’ between age
and gray hair is sufficiently close.” McWright
v. Alexander, 982 F.2d 222, 228 (7th Cir.
1992).
Pac. Shores Props., LLC v. City of Newport Beach, 730
F.3d 1142, 1160 n.23 (9th Cir. 2013). The Supreme
Court has recognized that “[a]ncestry can be a proxy
for race” in the Fifteenth Amendment context. Rice,
528 U.S. at 514; see Commonwealth Election Comm’n,
844 F.3d at 1092. Guinn v. United States, for example,
held that although an exemption to a voting literacy
test did not expressly classify by race, “the standard
itself inherently brings that result into existence.” 238
U.S. 347, 364-65 (1915). 12 Although proxy
discrimination does not involve express racial
classifications, the fit between the classification at
issue and the racial group it covers is so close that a
classification on the basis of race can be inferred

12 See also Stephen M. Rich, Inferred Classifications, 99 Va. L.
Rev. 1525, 1532 (2013) (discussing how the Supreme Court has
inferred facial racial classifications based on a “legislation’s form
and practical effect”).

App-31
without more. 13 For that reason, proxy discrimination
is “a form of facial discrimination.” Pac. Shores Props.,
730 F.3d at 1160 n.23.
Notably, proxy discrimination does not require an
exact match between the proxy category and the racial
classification for which it is a proxy. “Simply because
a class . . . does not include all members of the race
does not suffice to make the classification race
neutral.” Rice, 528 U.S. at 516-17. In Rice the
classification at issue—though not explicitly racial—
was so closely intertwined with race, given the
characteristics of Hawaii’s population in 1778, that
the law was readily understood to be discriminatory in
“purpose and operation.” Id. at 516. At its core, Rice
inferred the racial purpose of the Hawaii law from the
terms of the classification combined with historical
facts, concluding that Hawaii’s racial voter
qualification was “neither subtle nor indirect.” Id. at
514.
Relying on Rice, we held in Davis v.
Commonwealth Election Comm’n that an ancestrybased voting restriction in the Commonwealth of the
Northern Mariana Islands (“CNMI”) was a proxy for
race discrimination in violation of the Fifteenth
Amendment. 844 F.3d at 1093. Commonwealth
Election Commission concerned a provision of the
CNMI Constitution limiting voting in certain CNMI
elections to U.S. citizens or nationals “who [are] of at
least one-quarter Northern Marianas Chamorro or
Northern Marianas Carolinian blood,” a classification
13 We do not address whether ancestry can be a proxy for race
in contexts beyond the scope of the Fifteenth Amendment.

App-32
defined as someone who was “born or domiciled in the
Northern Mariana Islands by 1950 and . . . a citizen of
the Trust Territory of the Pacific Islands before the
termination of the Trusteeship with respect to the
Commonwealth.” Id. at 1090 (quoting N. Mar. I.
Const. art XII, § 4). We concluded that “the stated
intent of the provision [was] to make ethnic
distinctions,” even though the provision was
technically tethered to an ancestor’s residence in 1950,
and even though there was “historical evidence that
some persons who were not of Chamorro or Carolinian
ancestry lived on the islands in 1950.” Id. at 1093
(emphasis added). We reasoned that the voter
qualification at issue “tie[d] voter eligibility to descent
from an ethnic group;” the qualification “referenced
blood quantum to determine descent” much like the
Hawaiian law invalidated in Rice; and the statute
implementing the classification referenced race. Id. As
in Rice, the CNMI law left no reasonable explanation
for the voting qualifications except that voter
eligibility was race-based.
D
Like the classifications invalidated in Rice and
Commonwealth
Election
Commission,
the
classification “Native Inhabitants of Guam” in this
case serves as a proxy for race, in violation of the
Fifteenth Amendment. The 2000 Plebiscite Law limits
voting to “Native Inhabitants of Guam,” which it
defines as “those persons who became U.S. Citizens by
virtue of the authority and enactment of the 1950
Organic Act of Guam and descendants of those
persons.” 3 Guam Code Ann. § 21001(e). The Organic
Act granted U.S. citizenship to three categories of

App-33
people and their descendants. In summary, those
categories are:
(1) Individuals born before April 11, 1899,
who lived in Guam on that date as Spanish
subjects, and who continued to reside in some
part of the U.S. thereafter.
(2) Individuals born in Guam before April 11,
1899, who lived in Guam on that date, and
who continued to reside in some part of the
U.S. thereafter.
(3) Individuals born in Guam on or after April
11, 1899.
8 U.S.C. § 1407 (1952). This definition is so closely
associated with the express racial classification
“Chamorro” used in previously enacted statutes that
it can only be sensibly understood as a proxy for that
same racial classification. 14
The
2000
Plebiscite
Law’s
immediate
predecessors were not shy about using an express
racial classification. The Registry Act established an
official list of “Chamorro” people, defined according to
the Organic Act, as inhabitants of Guam in 1899 who
were Spanish subjects or were born in Guam before
1899, and the descendants of those individuals.
Registry Act § 20001(a). In its legislative findings and
Guam acknowledged in the district court that the term
“Chamorro” refers to a distinct racial category and does not
seriously contest otherwise on appeal. We have similarly
recognized “Chamorro” as a racial classification for Fifteenth
Amendment purposes. See Commonwealth Election Comm’n, 844
F.3d at 1093 (treating “Northern Marianas Chamorro” as a racial
classification).
14

App-34
statement of intent, the Registry Act provided: “The
Guam Legislature recognizes that the indigenous
people of Guam, the Chamorros, have endured as a
population with a distinct language and culture
despite suffering over three hundred years of colonial
occupation by Spain, the United States of America,
and Japan.” Id. § 1. It further stated: “The Guam
Legislature . . . endeavors
to
memorialize
the
indigenous Chamorro people . . . who continue to
develop as one Chamorro people on their homeland,
Guam.” Id. Finally, the Registry Act recognized that
“[t]he Legislature intends for this registry to assist in
the process of heightening local awareness among the
people of Guam of the current struggle for
Commonwealth, of the identity of the indigenous
Chamorro people of Guam, and of the role that
Chamorros and succeeding generations play in the
island’s cultural survival and in Guam’s political
evolution towards self-government.” Id. As part of
those purposes, the law recognized that the registry
may be used “for the future exercise of selfdetermination by the indigenous Chamorro people of
Guam.” Id.
The Registry Act formally tied the definition of
Chamorro to the race-neutral language of the Organic
Act. But the enactment as a whole rested on the
concept that the Chamorro were a “distinct people”
with a “common culture,” the very hallmarks of racial
classification Rice relied upon in concluding that
“Hawaiian” defined a racial group for Fifteenth
Amendment purposes. See 528 U.S. at 514-15.
The 1997 Plebiscite Law, which the 2000
Plebiscite Law built directly upon, similarly employed

App-35
express racial classifications. The 1997 law called for
a plebiscite limited to the “Chamorro people of Guam,”
defined as “[a]ll inhabitants of Guam in 1898 and their
descendants who have taken no affirmative steps to
preserve or acquire foreign nationality.” 1997
Plebiscite Law § 2(b). Like the Registry Act, the 1997
Plebiscite Law repeatedly employed the term
“Chamorro” to note a distinct group and described that
group as facing “colonial discrimination” and “longstanding injustice.” Id. § 1.
Additionally, the Guam legislature has long
defined the term “Native Chamorro” for purposes of
the Chamorro Land Trust Commission to include “any
person who became a U.S. citizen by virtue of the
authority and enactment of the Organic Act of Guam
or descendants of such person.” Guam Pub. L. No. 15118 (1980) (codified at 21 Guam Code Ann.
§ 75101(d)). The CLTC qualifies Native Chamorros to
lease land the United States previously seized from
Guam’s inhabitants during and after World War II
and later returned to the Guam government. After
passage of the 2000 Plebiscite Law, the Guam
legislature enacted a law providing that individuals
who receive a lease or were preapproved for one
through the CLTC are automatically registered in the
Guam Decolonization Registry, thereby qualifying
them to vote in the plebiscite. 3 Guam Code Ann.
§ 21002.1.
Several similarities between the 2000 Plebiscite
Law and its predecessors reveal that “Native
Inhabitants of Guam” is a proxy for “Chamorro,” and
therefore for a racial classification. First, the 2000
Plebiscite Law’s definition of “Native Inhabitants of

App-36
Guam” is nearly indistinguishable from the
definitions of “Chamorro” in the Registry Act, the 1997
Plebiscite Law, and the CLTC. “Native Inhabitants of
Guam” incorporates all the citizenship provisions of
the Organic Act, as does the definition of “Native
Chamorro” in the CLTC; the Registry Act and the 1997
Plebiscite Law mirror the first two sections of those
provisions. Compare 2000 Plebiscite Law § 21001(e);
21 Guam Code Ann. § 75101(d); Registry Act
§ 20001(a); 1997 Plebiscite Law § 2(b), with 8 U.S.C.
§ 1407 (1952). 15 That Guam applies nearly identical
definitions to the terms “Chamorro,” a racial category,
and “Native Inhabitants of Guam” indicates that these
terms are interchangeable. The closeness of the
association is sufficient to conclude that the term
“Native Inhabitants of Guam” is a proxy for the
“Chamorro” classification.
The Registry Act’s and the 1997 Plebiscite Law’s definition
of “Chamorro” do not incorporate the third citizenship provision
of the Organic Act, which grants citizenship to individuals born
in Guam on or after April 11, 1899. 8 U.S.C. § 1407(b) (1952).
Because the INA replaced the citizenship provisions of the
Organic Act in 1952, see Immigration and Nationality Act of
1952, Pub. L. No. 82-414, § 403(a)(42), 66 Stat. 163, 280, this
third provision uniquely includes only individuals who were born
in Guam between 1899 and 1952 but were not descendants of
individuals residing in Guam before 1899. The inclusion of this
third provision into the definition of “Native Inhabitants of
Guam” does not meaningfully differentiate the term “Native
Inhabitants of Guam” from the term “Chamorro.” Even including
the third citizenship provision of the Organic Act, it appears that
as of 1950 98.6% of people who were non-citizen nationals, and
thereby likely received citizenship pursuant to the Organic Act,
were categorized as “Chamorro.” See 1950 Census at 54-49 tbl.
38.
15

App-37
Second, the 2000 Plebiscite Law maintains nearly
identically the features of the facially race-based
Registry Act and the 1997 Plebiscite Law. This
continuity confirms the 2000 Plebiscite Law’s changes
to the Chamorro classification were semantic and
cosmetic, not substantive. 16
The 2000 Plebiscite Law creates a “Guam
Decolonization Registry” that mirrors the earlier
Registry Act. The new registry is structured similarly
to the earlier one, including requiring an affidavit to
register, compare 2000 Plebiscite Law § 21002, with
Registry Act § 20002; administering the registry
through the Guam Election Commission, compare
2000 Plebiscite Law § 21001(d), with Registry Act
§ 20001(c); and criminalizing false registration,
compare 2000 Plebiscite Law § 21009, with Registry
Act § 20009.
The 2000 Plebiscite Law also amends the 1997
Plebiscite Law to eliminate references to “Chamorro”
people, but otherwise retains the same features. See
2000 Plebiscite Law §§ 7, 9-11. Both statutes establish
non-binding elections on Guam’s future political
status relationship with the United States, the results
of which will be transmitted to the federal government
and to the United Nations. Compare 2000 Plebiscite
Law §§ 10-11, with 1997 Plebiscite Law §§ 5, 10. Given
The 2000 Plebiscite Law slightly changed the definition of
“Chamorro” in the Registry Act to include individuals born in
Guam prior to 1800 and their descendants. See 2000 Plebiscite
Law § 12; supra, n.4. However, this post-hoc revision does not
change the near identical resemblance between the definitions of
“Native Inhabitants of Guam” in the 2000 Plebiscite Law and the
original definition of “Chamorro” in the Registry Act.
16

App-38
the similarity in the substantive provisions and in the
definitions of “Chamorro” and of “Native Inhabitants
of Guam,” the substitution of terms does not erase the
1997 Plebiscite Law’s premise for the voting
restriction—to treat the Chamorro as a “distinct
people.” Rice, 528 U.S. at 515.
Finally, the timing of the 2000 Plebiscite Law’s
enactment confirms its racial basis. The 2000
Plebiscite Law was enacted on March 24, 2000, just
one month after Rice was decided. In Rice, Hawaii had
revised its definition of “Hawaiian” from an earlier
version, by replacing the word “races” with “peoples.”
Id. at 515-16. The Supreme Court concluded based on
the drafters’ own admission that “any changes to the
language were at most cosmetic.” Id. at 516. Although
we have no similar admission, the same is true here.
After Rice, Guam’s swift reenactment of essentially
the same election law—albeit with a change in
terms—indicates that the Guam legislature’s intent
was to apply cosmetic changes rather than
substantively to alter the voting restrictions for the
plebiscite.
Guam’s primary argument to the contrary is that
“Native Inhabitants of Guam” is not a racial category
but a political one referring to “a colonized people with
a unique political relationship to the United States
because their U.S. citizenship was granted by the
Guam Organic Act.” It attempts to distinguish this
case from Rice on the ground that the voter
qualification here is tethered not to presence in the
Territory at a particular date but to the passage of a
specific law—the Organic Act—which altered the legal

App-39
status of the group to which the ancestral inquiry is
linked.
But indirect or tiered racial classifications,
tethered to prior, race-based legislative enactments,
are subject to the same Fifteenth Amendment
proscription on race-based voting restrictions as are
explicitly racial classifications. In Guinn, the Supreme
Court invalidated an Oklahoma constitutional
amendment that established a literacy requirement
for voting eligibility but exempted the “lineal
descendant[s]” of persons who were “on January 1,
1866, or at any time prior thereto, entitled to vote
under any form of government, or who at that time
resided in some foreign nation.” 238 U.S. at 356-7.
That classification, like the one at issue here, was
facially tethered to specific laws—the voter eligibility
laws in existence in 1866 before the Fifteenth
Amendment was ratified. In that year, only eight
northern states permitted African Americans to vote.
See Benno C. Schmdit, Jr., Principle and Prejudice:
The Supreme Court and Race in the Progressive Era
Part 3, 82 Colum. L. Rev. 835, 862 (1982). Guinn held
the challenged Oklahoma voting qualification
incorporated—without acknowledging their racial
character—a set of former race-based statutory
restrictions. 238 U.S. at 364-65. In essence, the Court
recognized that Oklahoma was reviving its earlier
race-based voting restrictions, thereby violating the
Fifteenth Amendment.
Nor is Guam’s argument that the classification
here is political supported by the Supreme Court’s
recognition that classifications based on American
Indian ancestry are political in nature. Laws

App-40
employing the American Indian classification targeted
individuals “not as a discrete racial group, but, rather,
as members of quasi-sovereign tribal entities.”
Mancari, 417 U.S. at 554; see also Rice, 528 U.S. at
518-20; United States v. Antelope, 430 U.S. 641
(1977). 17 Both the Supreme Court and we have
rejected the application of Mancari for Fifteenth
Amendment purposes with respect to non-Indian
indigenous groups, namely those in Hawaii and the
CNMI respectively. See Rice, 528 U.S. at 518-20;
Commonwealth Election Comm’n, 844 F.3d at 1094. 18
Nothing counsels a different result in this case.
Although Mancari’s rationale was premised on the
recognized quasi-sovereign tribal status of Indians, “the Supreme
Court has not insisted on continuous tribal membership, or tribal
membership at all, as a justification for special treatment of
Indians,” and neither has Congress. Kamehameha Schs., 470
F.3d at 851 (Fletcher, J., concurring) (collecting cases and
statutes).
17

Because we affirm the district court on Fifteenth Amendment
grounds, we reserve judgment on whether the Mancari exception
may apply to the “Native Inhabitants of Guam” classification
outside the Fifteenth Amendment context. Rice, which rejected
the application of Mancari to Hawaiians for Fifteenth
Amendment purposes, was careful to confine its analysis to
voting rights under that amendment. It stated that “[t]he validity
of the voting restriction is the only question before us,” 528 U.S.
at 521, and emphasized the unique character of voting rights
under the Fifteenth Amendment. Id. at 512, 523-24; cf.
Commonwealth Election Comm’n, 844 F.3d at 1095 (“[L]imits on
who may own land are quite different—conceptually, politically,
and legally—than limits on who may vote in elections to amend
a constitution.”); Kamehameha Schs., 470 F.3d at 853 (Fletcher,
J., concurring) (arguing that Native Hawaiians are a political—
and not racial—classification for Fourteenth Amendment
purposes because, in part, “[u]nlike Rice, the case before us does
18

App-41
Here, the parallels between the 2000 Plebiscite
Law and previously enacted statutes expressly
employing racial classifications are too glaring to
brush aside. The near identity of the definitions for
“Native Inhabitants of Guam” and “Chamorro,” the
lack of other substantive changes, and the timing of
the 2000 Plebiscite Law’s enactment all indicate that
the Law rests on a disguised but evident racial
classification.
****
Concluding that the 2000 Plebiscite Law employs
a proxy for race is not to equate Guam’s stated purpose
of “providing dignity in . . . allowing a starting point
for a process of self-determination” to its native
inhabitants with the racial animus motivating other
laws that run afoul of the Fifteenth Amendment, see,
e.g., Gomillion, 364 U.S. at 347; Guinn, 238 U.S. at
364-65. Our decision makes no judgment about
whether Guam’s targeted interest in the selfdetermination of its indigenous people is genuine or
compelling. Rather, our obligation is to apply
established Fifteenth Amendment principles, which
single out voting restrictions based on race as
impermissible whatever their justification. Just as a
law excluding the Native Inhabitants of Guam from a
plebiscite on the future of the Territory could not pass
constitutional muster, so the 2000 Plebiscite Law fails
for the same reason.

not involve preferential voting rights subject to challenge under
the Fifteenth Amendment”).

App-42
IV
We hold that Guam’s limitation on the right to
vote in its political status plebiscite to “Native
Inhabitants of Guam” violates the Fifteenth
Amendment and so AFFIRM the district court’s
summary judgement order.

App-43
Appendix B
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF GUAM
________________
No. 11-00035
________________
ARNOLD DAVIS, on behalf of himself and all others
similarly situated,
v.

Plaintiff,

GUAM; GUAM ELECTION COMMISSION; ALICE M.
TAIJERON; MARTHA C. RUTH; JOSEPH F. MESA; JOHNNY
P. TAITANO; JOSHUA F. RENORIO; DONALD I. WEAKLEY;
LEONARDO M. RAPADAS,
Defendants.
________________
Filed: March 8, 2017
________________
DECISION AND ORDER RE: MOTIONS
FOR SUMMARY JUDGMENT
________________
This court heard the following matters on
September 1, 2016: Plaintiff’s Motion for Summary
Judgment Pursuant to FED. R. CIV. P. 56(a) (see ECF
No. 103); and Defendants’ Motion for Summary
Judgment Pursuant to FED. R. CIV. P. 56 (see ECF
No. 106). Appearing on behalf of the Plaintiff were Mr.
J. Christian Adams of Election Law Center, PLLC,
and Mr. Mun Su Park of Law Offices of Park and
Associates. Appearing on behalf of the Defendants

App-44
were Attorney General of Guam Elizabeth BarrettAnderson, Deputy Attorney General Kenneth Orcutt,
and Special Assistant Attorney General Julian Aguon.
After careful consideration and after having reviewed
the parties’ briefs, relevant cases and statutes, and
having heard argument from counsel on the matter,
the court hereby GRANTS the Plaintiff’s Motion for
Summary Judgment and finds MOOT Defendants’
Motion for Summary Judgment for the reasons stated
herein.
I.

CASE OVERVIEW 1

This is a civil rights action which deals with the
topic of self-determination of the political status of the
island and who should have the right to vote on a
referendum concerning such. The Plaintiff claims that
he is prohibited from registering to vote on the
referendum, which is a violation of the Voting Rights
Act, the Organic Act of Guam, and his Fifth,
Fourteenth and Fifteenth Amendment rights.
A. Factual Background 2
On November 22, 2011, Plaintiff filed his
complaint for declaratory and injunctive relief. See
Compl., ECF No. 1. In the complaint, he alleges
discrimination in the voting process by Guam and the
Defendants. Id. Plaintiff alleges that under Guam law,
a Political Status Plebiscite (“Plebiscite”) is to be held
concerning Guam’s future relationship with the
The page citations throughout this Decision and Order are
based on the page numbering provided by the CM/ECF system.
1

2 A portion of the factual background is based on the same
information that was contained in a prior decision of the court.
See Report and Recommendation, ECF No. 44.

App-45
United States. Id. at ¶ 8. Plaintiff, a white, nonChamorro, male and resident of Guam, states that he
applied to vote for the Plebiscite but was not permitted
to do so because he did not meet the definition of
“Native Inhabitant of Guam.” Id. at ¶¶ 20 and 21.
“Native Inhabitants of Guam” is defined as “those
persons who became U.S. Citizens by virtue of the
authority and enactment of the 1950 Guam Organic
Act and descendants of those persons.” 3 Guam Code
Ann. § 21001(e).
The Plebiscite would ask native inhabitants
which of the three political status options they
preferred. The three choices are Independence, Free
Association with the United States, and Statehood.
See Compl., ECF No. 1, at ¶ 8.
Because Plaintiff was denied the right to register
for the Plebiscite, he filed the instant complaint,
stating three causes of action. In his first cause of
action, he alleges that by limiting the right to vote in
the Plebiscite to only Native Inhabitants of Guam, the
purpose and effect of the act was to exclude him and
most non-Chamorros from voting therein, thereby
resulting in a denial or abridgment of the rights of
citizens of the United States to vote on account of race,
color, or national origin, a violation of Section 2 of the
Voting Rights Act of 1965.
In his second cause of action, Plaintiff alleges that
Defendants are preventing him from registering to
vote in the Plebiscite because he is not a Native
Inhabitant of Guam. Thus, Defendants are engaged in
discrimination on the basis of race, color, and/or
national origin in violation of various laws of the
United States.

App-46
Lastly, the Plaintiff’s third cause of action alleges
that he is being discriminated in relation to his
fundamental right to vote in the Plebiscite in violation
of the Organic Act of Guam, the U.S. Constitution and
other laws of the United States for the reason that he
is not a Native Inhabitant of Guam.
In his Prayer for Relief, Plaintiff seeks a
judgment: enjoining Defendants from preventing
Plaintiff and those similarly situated from registering
for and voting in the Plebiscite; enjoining Defendants
from using the Guam Decolonization Registry in
determining who is eligible to vote in the Plebiscite;
enjoining Defendant Leonardo Rapadas from
enforcement of the criminal law provisions of the Act
that make it a crime to register or allow a person to
vote in the Plebiscite who is not a Native Inhabitant
of Guam 3; and a declaration that Defendants’ conduct
has been and would be, if continued, a violation of law.
B. Relevant Procedural Background
On November 22, 2011, Plaintiff filed his
complaint herein. See Compl., ECF No. 1. On
December 2, 2011, the then-Attorney General of
Guam, Leonardo M. Rapadas, a named Defendant, on
behalf of himself and all named defendants, moved to
dismiss the complaint on the ground that it failed to
In the appellate decision issued on May 8, 2015, the Ninth
Circuit found that because Plaintiff did not argue on appeal that
this court erred by dismissing his claim against Mr. Leonardo
Rapadas, the Attorney General of Guam, to enforce a provision of
Guam’s criminal law that makes it a crime for a person who
knows he is not a Native Inhabitant to register for the Plebiscite,
any claim of error in that regard was waived. See Davis v. Guam,
785 F.3d 1311, 1316 (9th Cir. 2015).
3

App-47
present a case or controversy. See Defs.’ Mot., ECF No.
17. On January 9, 2013, the court granted Defendants’
motion to dismiss finding that the Plaintiff lacked
standing and the case was not ripe for adjudication.
See Order, ECF No. 78. The Plaintiff appealed.
On May 8, 2015, the Ninth Circuit issued its
decision, finding that the Plaintiff has standing to
pursue his challenge to Guam’s alleged race-based
registration classification and that the claim was ripe
because the Plaintiff alleged he was currently
subjected to unlawful unequal treatment in the
ongoing registration process. See Davis v. Guam, 785
F.3d 1311 (9th Cir. 2015).
On October 30, 2015, both parties filed their
respective motions for summary judgment. See Pl.’s
Mot., ECF Nos. 103; and Defs.’ Mot., ECF No. 106. The
court heard the matter on September 1, 2016, and
thereafter took it under advisement.
C. Instant Motions Before the Court
i.

Plaintiff’s
Judgment

Motion

for

Summary

The Plaintiff moves the court for a judgment
pursuant to FED. R. CIV. P. 56(a), wherein he seeks
the enjoinment of the Plebiscite, and (ii) a declaration
from the court that the Plebiscite violates the
Fourteenth and Fifteenth Amendments of the United
States Constitution, the Voting Rights Act, and the
Organic Act. See Pl.’s Mot., ECF No. 103.
ii.

Defendants’ Motion for Summary
Judgment

Defendants likewise move the court for a
judgment pursuant to Fed. R. Civ. P. 56, wherein they

App-48
seek judgment granted in their favor because Plaintiff
cannot make a prima facie case of impermissible racebased discrimination under the United States
Constitution or any federal statutes. See Defs.’ Mot.,
ECF No. 106.
II. JURISDICTION AND VENUE
The court has jurisdiction to hear this matter
pursuant to 28 U.S.C. §§ 1331 and 1343, for Plaintiff’s
claims under the Voting Rights Act, the Organic Act of
Guam, and his Constitutional rights under the Fifth,
Fourteenth, and Fifteenth Amendments. See also 48
U.S.C. § 1424.
Venue is proper in this judicial district, the
District Court of Guam, because Defendants are
Guam, the Government of Guam and its officials, and
all of the events giving rise to Plaintiff’s claims
occurred here. See 28 U.S.C. § 1391.
III. SUMMARY JUDGMENT STANDARD
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). To
demonstrate that a material fact cannot be genuinely
disputed, the movant may:
(A) cit[e] to particular parts of materials in
the record, including depositions, documents,
electronically stored information, affidavits
or declarations, stipulations (including those
made for purposes of the motion only),
admissions, interrogatory answers, or other
materials; or

App-49
(B) show[] that the materials cited do not
establish the absence or presence of a genuine
dispute, or that an adverse party cannot
produce admissible evidence to support the
fact.
Fed. R. Civ. P. 56(c)(1).
A fact is material if it might affect the outcome of
the suit under the governing substantive law. See
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). A factual dispute is “genuine” where “the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Id. Thus, the
evidence presented in opposition to summary
judgment must be “enough ‘to require a jury or judge
to resolve the parties’ differing versions of the truth at
trial.’” Aydin Corp. v. Loral Corp., 718 F.2d 897, 902
(9th Cir. 1983) (quoting First Nat’l Bank v. Cities
Servs. Co., 391 U.S. 253, 288-89 (1968)).
A shifting burden of proof governs motions for
summary judgment under Rule 56. In re Oracle Corp.
Securities Litig., 627 F.3d 376, 387 (9th Cir. 2010). The
party seeking summary judgment bears the initial
burden of proving an absence of a genuine issue of
material fact. Id. (citing Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986)). Where, as here, the moving
party will have the burden of proof at trial, “the
movant must affirmatively demonstrate that no
reasonable trier of fact could find other than for the
moving party.” Soremekun v. Thrifty Payless, Inc., 509
F.3d 978, 984 (9th Cir. 2007).
If the moving party meets that burden, the burden
then shifts to the nonmoving party to set forth
“specific facts showing that there is a genuine issue for

App-50
trial.” Liberty Lobby, 477 U.S. at 250. “The mere
existence of a scintilla of evidence . . . will be
insufficient” and the nonmoving party “must do more
than simply show that there is some metaphysical
doubt as to the material facts.” Id. at 252; Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
586 (1986). Viewing the evidence in the light most
favorable to the non-moving party, “[w]here the record
taken as a whole could not lead a rational trier of fact
to find for the non-moving party, there is no ‘genuine
issue for trial.’” Matsushita, 475 U.S. at 587.
IV. DISCUSSION
A. Guam law on voter qualification for the
Plebiscite
violates
the
Fifteenth
Amendment’s prohibition of racial
discrimination in voting.
The Fifteenth Amendment provides that “[t]he
right of citizens of the United States to vote shall not
be denied or abridged by the United States or by any
State on account of race, color, or previous condition of
servitude.” U.S. Const. Amend. XV. The Fifteenth
Amendment applies to Guam. See 48 U.S.C. §1421b(u)
(“The following provisions of and amendments to the
Constitution of the United States are hereby extended
to Guam . . . and shall have the same force and effect
there as in the United States or in any State of the
United States: . . . the fifteenth [ ] amendment[].”).
Plaintiff asserts that Defendants are in violation
of the Fifteenth Amendment because Plaintiff was
denied the right to register to vote in the Plebiscite on
account of his race. Pl.’s Mem. in Supp. of Pl.’s Mot.
(“Pl.’s Mem.”), ECF No. 104, at 20. Plaintiff is
Caucasian with no Chamorro ancestry. Pl.’s Ex. A,

App-51
ECF No. 105-1, at 2. He attempted to register to vote
in the Plebiscite, but the Guam Election Commission
did not accept his application to register and instead
marked the form as “void.” Pl.’s Ex. C, ECF 105-3, at
1.
i.

The Fifteenth Amendment prohibits
use of ancestry as proxy for race.

“Fundamental in purpose and effect and selfexecuting in operation, the [Fifteenth] Amendment
prohibits all provisions denying or abridging the
voting franchise of any citizen or class of citizens on
the basis of race.” Rice v. Cayetano, 528 U.S. 495, 512
(2000). While there were attempts to manipulate the
system to exclude others from voting since the passage
of the Amendment, the Supreme Court noted that
“[t]he Fifteenth Amendment was quite sufficient to
invalidate a scheme which did not mention race but
instead used ancestry in an attempt to confine and
restrict the voting franchise.” Id. at 113. “[R]acial
discrimination is that which singles out identifiable
classes of persons . . . solely because of their ancestry
or ethnic characteristics.” Id. at 515, citing Saint
Francis College v. Al-Khazraji, 481 U.S. 604, 613
(1987) (internal quotation marks omitted).
Recognizing that ancestry can be proxy for race,
the court in Rice found that the voting qualification
requirements for the Office of Hawaiian Affairs
(“OHA”) trustees, which are chosen in a statewide
election, uses ancestry as proxy for race. 528 U.S. at
514. In that case, the Hawaiian Constitution limits the
right to vote for the OHA trustees to “Hawaiians,”
which consists of two subclasses of the Hawaiian
citizenry. Id. at 498-99. The smaller class, known as

App-52
“native Hawaiians,” is made up of descendants of not
less than one-half part of the races inhabiting the
Hawaiian Islands prior to 1778. 4 Id. at 499. The larger
class, known as “Hawaiians,” is made up of
descendants of people inhabiting the Hawaiian
Islands in 1778. 5 Id. Petitioner Rice is a citizen of
Hawaii, but he does not have the requisite ancestry to
qualify to vote in the OHA trustee election. Id. His
application to register to vote for OHA trustees was
denied. Id. at 510.
The state of Hawaii maintains that the statute “is
not a racial category at all but instead a classification
limited to those whose ancestors were in Hawaii at a
particular time, regardless of their race.” Id. at 514.
The state puts forth the following arguments: some
inhabitants of Hawaii as of 1778 may have migrated
from the Marquesas Islands, the Pacific Northwest,
and Tahiti; “the restriction in its operation excludes a
person whose traceable ancestors were exclusively
Polynesian if none of those ancestors resided in
The statutory definition of “native Hawaiian” is as follows:
“‘Native Hawaiian’ means any descendant of not less than onehalf part of the races inhabiting the Hawaiian Islands previous
to 1778, as defined by the Hawaiian Homes Commission
Act . . . provided that the term identically refers to the
descendants of such blood quantum of such aboriginal peoples
which exercised sovereignty and subsisted in the Hawaiian
Islands in 1778 and which peoples thereafter continued to reside
in Hawaii.”
4

5 The statutory definition of “Hawaiian” is as follows:
“‘Hawaiian’ means any descendant of the aboriginal peoples
inhabiting the Hawaiian Islands which exercised sovereignty and
subsisted in the Hawaiian Islands in 1778, and which peoples
thereafter have continued to reside in Hawaii.”

App-53
Hawaii in 1778;” and, “the vote would be granted to a
person who could trace, say, one sixty-fourth of his or
her ancestry to a Hawaiian inhabitant on the pivotal
date.” Id.
The Supreme Court rejected the state’s argument
that the classification is not racial in nature, holding
that ancestry can be proxy for race. Id. In finding that
the state “has used ancestry as a racial definition and
for a racial purpose”, the court noted that “[t]he very
object of the statutory definition in question and of its
earlier congressional counterpart in the Hawaiian
Homes Commission Act 6 is to treat the early
Hawaiians as a distinct people[.]” Id. at 514-15.
Looking at the legislative history, the court also noted
that the definition of “Hawaiian” was changed to
substitute “peoples” for “races” but such change—
based on congressional committee records—was
“merely technical” and the meaning did not change:
“peoples” still meant “races.” Id. at 516.
“Distinctions between citizens solely because of
their ancestry are by their very nature odious to a free
people whose institutions are founded upon the
doctrine of equality.” Hirabayashi v. United States,
320 U.S. 81, 100 (1943). Further, “it demeans the
dignity and worth of a person to be judged by ancestry
instead of by his or her own merit and essential
qualities.” Rice, 528 U.S. at 517.

6
The Hawaiian Homes Commission Act set aside
approximately 200,000 acres of land and created a program of
loans and long-term leases for the benefit of native Hawaiians.
Rice, 528 U.S. at 507.

App-54
ii.

“Native Inhabitants of Guam” is a
race-based classification.

The statute in question is the definition of “Native
Inhabitants of Guam,” as provided in Public Law No.
25-106 and codified in 3 Guam Code Ann. § 21001(e),
since Guam law requires that only “Native
Inhabitants of Guam” be allowed to vote in the
Plebiscite. 7 See 1 Guam Code Ann. § 2110. “Native
Inhabitants of Guam” is defined as “persons who
became U.S. Citizens by virtue of the authority and
Section 2110 of Title 1 of the Guam Code Annotated provides
in its entirety the following:
7

Plebiscite Date and Voting Ballot.
(a) The Guam Election Commission shall conduct a “Political
Status Plebiscite”, at which the following question, which
shall be printed in both English and Chamorro, shall be
asked of the eligible voters:
In recognition of your right to self-determination, which of
the following political status options do you favor? (Mark
ONLY ONE):
1. Independence ( )
2. Free Association with the United States of America ( )
3. Statehood ( ).
Persons eligible to vote shall include those persons
designated as Native Inhabitants of Guam, as defined within
this Chapter of the Guam Code Annotated, who are eighteen
(18) years of age or older on the date of the “Political Status
Plebiscite” and are registered voters on Guam.
The “Political Status Plebiscite” mandated in Subsection (a)
of this Section shall be held on a date of the General Election
at which seventy percent (70%) of eligible voters, pursuant to
this Chapter, have been registered as determined by the
Guam Election Commission.
1 Guam Code. Ann. § 2110.

App-55
enactment of the 1950 Guam Organic Act and
descendants of those persons.” 3 Guam Code Ann.
§ 21001(e). “Descendant” is defined as “a person who
has proceeded by birth . . . from any ‘Native
Inhabitant of Guam’ . . . and who is considered placed
in a line of succession from such ancestor where such
succession is by virtue of blood relations.” 3 Guam
Code Ann. §21001(c) (emphasis added).
In other words, the voter qualification for the
Plebiscite is set up to limit it to only two groups: (1)
those individuals who obtained their U.S. citizenship
by virtue of the Organic Act in 1950, and (2) their
descendants. Id. Similar to Rice, the voter
qualification here is a proxy for race because it
excludes nearly all persons whose ancestors are not of
a particular race. See 528 U.S. at 514-16. As Plaintiff
correctly points out, even an adopted child of a
descendant cannot vote in the Plebiscite. See Pl.’s
Reply, ECF No. 115, at 8-9. Bloodline/ancestry is
required.
Defendants argue that the statute is not racebased but rather based on “the 1950 date [which]
refers to the passage of a specific law that changed the
citizenship status of a defined class of people.” 8 Defs.’
Opp’n., ECF No. 112, at 11. Defendants support their
Defendants also argue that the definition of “Native
Inhabitants of Guam” does not “provide that all Chamorro people
are eligible to vote” in the Plebiscite and therefore, the statute is
not racial. Defs.’ Opp’n., ECF No. 112, at 6. The U.S. Supreme
Court in Rice has already addressed this issue, holding that
“[s]imply because a class defined by ancestry does not include all
members of the race does not suffice to make the classification
race neutral.” Rice, 528 U.S. at 516-17.
8

App-56
non-racial argument by pointing to the 1950 census for
Guam, which confirms that there are multiple racial
or ethnic groups that became U.S. citizens by virtue of
the Organic Act. Id. at 11-12, 18. It was not limited to
one racial group such as Chamorros. Id. The court
finds this argument to be unpersuasive. See Davis v.
Commonwealth Election Comm’n., 844 F.3d 1087,
1093 (9th Cir. 2016) (“While there is historical
evidence that some persons who were not of Chamorro
or Carolinian ancestry lived on the islands in 1950
[and therefore qualify as a ‘full blooded’ Northern
Marianas descent], Rice forecloses this argument. The
Fifteenth Amendment will not tolerate a voter
restriction which singles out identifiable classes of
persons . . . solely because of their ancestry or ethnic
characteristics.” (internal quotation marks and
citations omitted)).
The 1950 census data shows that the total
population in Guam was 59,498. See Pl.’s Ex. D1, ECF
No. 105-5, at 4. Out of that number were 26,142 nonU.S. citizens. 9 Id. The breakdown of these non-U.S.
citizens is as follows: 24 Chinese; 36 Whites; 127
Filipinos; 25,788 Chamorros; and 167 “Other”. Id.
That is a total of 354 non-Chamorros living on Guam
in 1950, a diminutive number (approximately 1.4
This number represents the total population of non-U.S.
citizens residing on Guam in 1950, who presumably, became U.S.
citizens by virtue of the Organic Act. Accordingly, this is the
number that represents those who are considered “Native
Inhabitants” pursuant to 3 Guam Code Ann. § 21001(e). Those
living on Guam who were already U.S. citizens prior to the
enactment of the Organic Act do not fall within the definition of
“Native Inhabitants.” See id.
9

App-57
percent) compared to the 25,788 Chamorros on Guam
during that same time period.
In Rice, the state of Hawaii advanced a similar
argument as the Defendants here, noting that the
individuals living in Hawaii in 1778 are not
exclusively from one particular race but rather, some
came from the Marquesas Islands, the Pacific
Northwest, and Tahiti. 528 U.S. at 514. The Supreme
Court rejected this line of argument. Id. It noted that
the
inhabitants
shared
common
physical
characteristics and a common culture, making them
distinct people, and the law reflects “the State’s effort
to preserve that commonality of people to the present
day.” Id. at 514-15. The court further went on to
review the history of the statute in question. Id. at
515.
In this case, the current Plebiscite law traces its
beginnings to Public Law No. 23-130, which became
law on December 30, 1996. See Pub. L. No. 23-130;
Pl.’s Ex. F, ECF No. 105-7. Therein, the Guam
Legislature established a Chamorro Registry for the
purpose of establishing an index of names by the
Guam Election Commission for registering Chamorros
and recording their names. Id. The Registry was to
serve as a tool to educate Chamorros about their
status as an indigenous people and their inalienable
right to self-determination. Id. at § 1.
Shortly after the passage of the above-referenced
law, the Guam Legislature passed Public Law No. 23147, and it became law on January 23, 1997. See Pub.
L. No. 23-147; Pl.’s Ex. G, ECF No. 105-8. This new
law created the Commission on Decolonization for the
Implementation and Exercise of Chamorro Self-

App-58
Determination (“Commission on Decolonization”). See
§ 4, Pub. L. No. 23-147. The purpose of the
Commission was to ascertain the desires of the
“Chamorro people of Guam” as it pertained to their
future political relationship with the United States.
Id. at § 5. The law required the Guam Election
Commission to conduct a Political Status Plebiscite at
the next island-wide Primary Election, 10 during which
the “Chamorro people entitled to vote” would be asked
to choose among three political status options:
Independence, Free Association, and Statehood. Id. at
§ 10. The results of the Plebiscite were to be
transmitted to the President and Congress of the
United States and the Secretary General of the United
Nations. Id. at § 5.
In that same public law, “Chamorro people of
Guam” was defined as “[a]ll inhabitants of Guam in
1898 and their descendants who have taken no
affirmative steps to preserve or acquire foreign
nationality.” Id. at § 2(b). Thereafter, the Guam
Legislature passed Public Law No. 25- 106, which
became law on March 24, 2000. See Pub. L. No. 25-106;
Pl.’s Ex. H, ECF No. 105-9. That law changed the
persons entitled to vote from “Chamorro people of
Guam” to “Native Inhabitants of Guam”. See § 11,
Pub. L. 25-106. The definition of “Native Inhabitants
of Guam” in Public Law No. 25-106 (codified as 3
Guam Code Ann. § 21001(e)), is nearly identical to the

10 The law was later amended, and it required the Plebiscite to
be held on a general election at which seventy percent (70%) of
eligible voters have been registered as determined by the Guam
Election Commission. See § 23, Pub. L. No. 27-106.

App-59
definition of “Native Chamorro” 11 as defined in the
Chamorro Land Trust Commission Act. 12 See 21 Guam
Code Ann. § 75101(d).
Public Law No. 25-106 also created a Guam
Decolonization Registry, which is a registry for
qualified voters of the Plebiscite. 13 See Pub. L. No. 25106. The Guam Legislature also provided for the
waiver of an affidavit (required when you register to
vote for the Plebiscite) for individuals who have
received a Chamorro Land Trust Commission
(“CLTC”) lease or have been preapproved to receive
one (pursuant to 21 Guam Code Ann. § 75107, to be
eligible for a CLTC lease, one must be a “Native
Chamorro”). See § 3, Pub. L. No. 30-102, codified as 3
Guam Code Ann. §21002.1. That same law also
automatically registers those individuals into the
registration roll of the Guam Decolonization Registry.
Id.
The specific sequence of events shows that the
Guam Legislature passed into law Public Law No. 25106 soon after the U.S. Supreme Court issued its
“Native Inhabitants of Guam” is defined as “those persons
who became U.S. Citizens by virtue of the authority and
enactment of the 1950 Guam Organic Act and descendants of
those persons”, whereas “Native Chamorro” is defined as “any
person who became a U.S. citizen by virtue of the authority and
enactment of the Guam Organic Act or descendants of such
person.” See 3 Guam Code Ann. § 21001(e) and 21 Guam Code
Ann. § 75101.
11

The Chamorro Land Trust Commission was created for the
administration of the returned land for native Chamorros. See
Chapter 75 of Title 21 of the Guam Code Annotated.
12

13 It was a registry separate and apart from the Chamorro
Registry that was created by Public Law No. 23-130.

App-60
decision in Rice, wherein the court invalidated the use
of ancestry as a voting qualification requirement,
because it was determined to be a proxy for race. See
528 U.S. 495 (2000). The Rice decision was issued on
February 23, 2000, and Public Law No. 25-106 was
passed by the legislature on March 9, 2000, and
enacted into law on March 24, 2000. See id. and Pl.’s
Ex. H, ECF No. 105-9.
The court finds that similar to Rice, the use of
“Native Inhabitants of Guam” as a requirement to
register and vote in the Plebiscite is race-based and
that the Guam Legislature has used ancestry as a
racial definition and for a racial purpose. It is clear to
the court that the Guam Legislature attempted to
manipulate the system to exclude others from voting
by immediately deleting the term “Chamorro people”
from the law that mandated the Plebiscite and
replacing it with “Native Inhabitants”—a neutral
term on its face, without any reference to a specific
race, when the Rice decision was issued. Yet, the
Guam Legislature used the same definition of “Native
Chamorro”, as contained in the Chamorro Land Trust
Commission Act, for the artfully and newly created
term “Native Inhabitants” in the Plebiscite statute.
Further, a “Native Chamorro” who has received or has
been preapproved for a CLTC lease is automatically
registered into the Plebiscite registration roll (the
Guam Decolonization Registry). Gleaning from all of
these—similar to Rice, the very object of the statutory
definition in question here is to treat the Chamorro
people as “a distinct people”. See Rice, 528 U.S. at 515.
It is clear to the court that the Guam Legislature has
used ancestry as a proxy for race.

App-61
Defendants attempt to distinguish Rice from the
present case by arguing that the statute being
challenged has no discriminatory purpose. 14 See Defs.’
Opp’n., ECF No. 112, at 9, 16. Discriminatory purpose
is required under the Fifteenth Amendment when a
restriction is raceneutral on its face. Davis, 844 F.3d
at 1094 n.5, citing City of Mobile, Ala. v. Bolden, 446
U.S. 55, 62 (1980). Defendants support their argument
by pointing to the “Legislative Findings and Intent”
contained in Section 1 of Public Law No. 25-106. It
states in relevant part the following:
...I
Liheslaturan
Guahan’s
[Guam
Legislature’s] intent that the qualifications
for voting in the political status plebiscite
shall not be race-based, but based on a clearly
defined political class of people resulting from
historical acts of political entities in relation
to the people of Guam.
P.L. 25-106, § 1. See Defs.’ Opp’n., ECF No. 112, at 7.
The Guam Legislature further emphasized that “[t]he
intent of [the legislation] shall not be construed nor
implemented by the government officials effectuating
its provisions to be race based, but founded upon the
classification of persons as defined by the U.S.
Congress in the 1950 Organic Act of Guam.” 3 Guam
Code Ann. § 21000. It further noted that the Guam
Decolonization Registry (registry for the Plebiscite) is
14 Defendants also seem to infer that “animus” is required in
order for the court to find a violation of the Fifteenth
Amendment. See generally Defs.’ Opp’n., ECF No. 112
(Defendants used the term repeatedly throughout their brief.).
However, Defendants have not provided any legal authority to
support this inference.

App-62
a separate registry from the Chamorro Registry and
that it is not “one based on race.” Id.
Defendants contend that “[i]t is firmly established
that the carefully chosen words of a statute prevail
over the isolated statements of individual lawmakers,”
providing a string citation to cases regarding review of
legislative history to determine legislative intent. 15
See Defs.’ Opp’n., ECF No. 112, at 7-8. The isolated
statements being referred to were made by thensenator Tina Muna Barnes. Id. at 6-7. In Plaintiff’s
Motion, he discussed Ms. Muna Barnes’ introduction
of Bill No. 151-31, which would have allowed all
registered voters to vote in the Plebiscite. See Pl.’s
Mem., ECF No. 104, at 12.
The following conversation transpired during the
Roundtable Meeting on the Political Status Bills (Bill
Nos. 151-31, 154-31, and 168-31) on May 20, 2011:
Sen. Tom Ada: “Chairman, may I speak to
best clarify the issue. This (indicating Bill
No. 151) does say that all registered voters in
For example, in Garcia v United States, the court found that
“[i]n surveying legislative history we have repeatedly stated that
the authoritative source for finding the Legislature’s intent lies
in the Committee Reports on the bill, which represent the
considered and collective understanding of those Congressmen
involved in drafting and studying proposed legislation . . . We
have eschewed reliance on the passing comments of one
Member . . . and casual statements from the floor debates . . . we
stated that Committee Reports are more authoritative than
comments on the floor[.]” 469 U.S. 70, 76 (1984). This is in line
with one of the factors articulated in Arlington Heights in
determining intent; that is, the court reviews legislative history,
including the minutes and committee reports of the legislation,
as discussed infra.
15

App-63
Guam can vote on this. To include, the outside
people, even if they’re not Chamorro.”
Sen. Muna Barnes: “I apologize that wasn’t
the intent. This straw poll would not be the
determinant factor in what the people want. I
support a Chamorro-only vote, and it’s up to
the people, the Chamorros of Guam . . . [to]
determine what their determination should
be. Again, I apologize, that wasn’t the intent.”
...
Sen. Respicio: “ . . . You just heard Sen.
Barnes clarify and this bill would have to be
amended because it says by all Guam voters.
She just clarified that her intent was only to
make those eligible to vote on the plebiscite
vote, so bill 151 is kind of closer now to bill
154 that Sen. Guthertz is proposing but only
154 kind of talks about the methodology to
which the vote shall take place so you can
have some comfort knowing that the author
is more in agreement with most of us on this
issue . . .”
...
Sen. Respicio: “But earlier you said that it
wasn’t your intent to make all of Guam voters
vote and so that you agreed with the position
that only people who should be eligible to
vote . . .”
Sen. Muna Barnes: “Yes, and I said that the
drive for the Chamorro only vote should exist,
I’ve said that over and over and over . . .”

App-64
Sen. Respicio: “But first would you want
everybody who is a Guam voter to vote on
their preferred political status and it’s really
it’s not a Chamorro only vote because it’s
date-based rather than race-based so people
ask that we not call it Chamorro only vote
because that’s what’s been supported . . .”
Sen. Muna Barnes: “As defined by the laws
and provisions that are in place today, Mr.
Chairman.”
Sen. Respicio: “But are you suggesting then,
we amend this ‘by all of Guam voters’ and
limit it to those eligible to vote in the
plebiscite which is what the original law is.”
Sen. Muna Barnes: “Yes.”
...
Sen. Respicio: “I think what she’s saying is
that, maybe I’m misunderstanding, but only
those who are eligible to vote on the plebiscite
should vote for what their preferred status is.
Only those who obtained their citizenship
through the Organic Act should be the one to
vote on the plebiscite, that’s most of our
positions, and the Senator just clarified that
it wasn’t her intent to make everybody vote,
although the bill reflected that, so this bill
will have to be amended, and so the purpose
of this roundtable . . . , is that we have three
bills with all completing outcomes, and rather
than having a public hearing and looking like
we were all over the place, we wanted to have
a roundtable to kind of focus on what kind of
direction we wanted to have.”

App-65
Portion of Transcript during Roundtable Meeting on
the Political Status Bills (May 20, 2011). See Pl.’s
Ex. I, ECF No. 105-10, at 75-76, 84. The legislative
history of Bill No. 151-31 is contained within the
legislative committee report of Bill No. 154-31, which
became Public Law No. 31-92. Plaintiff notes that Bill
No. 151-31 was subsequently withdrawn. Pl.’s Mem.,
ECF No. 104, at 12.
Defendants argue that Ms. Muna Barnes’ isolated
statements should carry very little weight, if any, in
determining whether there was discriminatory
purpose in the Plebiscite. See Defs.’ Opp’n., ECF
No. 112, at 6-7. Defendants’ reliance on the cases they
cited to on this point is misplaced. See Defs.’ Opp’n.,
ECF No. 112, at 7-8. For example, in Florida v. United
States, the district court noted that the legislator’s sole
statement “is the only statement to which the
defendants point as evidencing a discriminatory
purpose on the part of the Florida legislature.” 885
F.Supp.2d 299, 354 (D.D.C. Aug. 16, 2012). That is not
the case here. Plaintiff does not rely solely on one
legislator’s statement to demonstrate discriminatory
purpose. He relies on the legislative history and the
surrounding circumstances of the enactment of the
Plebiscite statute.
The Supreme Court in Arlington Heights v.
Metropolitan Housing Development Corp. articulated
the following method in determining discriminatory
purpose:
Determining
whether
invidious
discriminatory purpose was a motivating
factor demands a sensitive inquiry into such
circumstantial and direct evidence of intent

App-66
as may be available. . . . The historical
background of the decision is one evidentiary
source, particularly if it reveals a series of
official
actions
taken
for
invidious
purposes. . . . The specific sequence of events
leading up the challenged decision also may
shed some light on the decisionmaker’s
purposes. Departures from the normal
procedural sequence also might afford
evidence that improper purposes are playing
a role. . . . The legislative or administrative
history may be highly relevant, especially
where there are contemporary statements by
members of the decisionmaking body, minutes
of its meetings, or reports.
429 U.S. 252, 265-68 (1977) (emphasis added).
The court recognizes that the Guam Legislature
articulated its intent in Public Law 25-106, that the
Plebiscite not be based on race. However, the court
cannot ignore the specific sequence of events leading
up to the passage of that particular legislation. As
discussed supra, the legislation was passed into law
immediately after the Rice decision. Further, the
definition of “Native Inhabitants of Guam” is nearly
identical to the definition of “Native Chamorro”—a
facially race-based term—used in the Chamorro Land
Trust Commission Act. The law also provides that a
“Native Chamorro” who has received or is
preapproved for a CLTC lease be automatically
registered into the Guam Decolonization Registry, a
registry maintained for the purposes of the Plebiscite.
Further, aside from Ms. Muna Barnes’ reference
to the Plebiscite as a “Chamorro-only” vote during the

App-67
roundtable meeting, the legislative committee report
reveals that there was a common theme from the
individuals who spoke at the meeting—that being that
the Plebiscite is a Chamorro-only vote and nonChamorros should not be allowed to have a say in the
Chamorro self-determination process. See Legislative
Committee Report on Bill No. 154-31 (COR) As
Substituted, Pl.’s Ex. I, ECF No. 105-10, at 73-100.
Although the committee report that contained this
information was for Public Law No. 31-92 and not the
committee report for Public Law No. 25-106, the court
cannot ignore the historical background and
legislative history of the Plebiscite as a whole. Public
Law No. 31-92 is relevant to the Commission on
Decolonization legislation, having provided for the
registration method and educational campaign
programs for the Plebiscite. See Pub. L. No. 31-92; Pl.’s
Ex. I, ECF No. 105-10. In fact, the legislative body as
a whole referred to the self-determination as
“Chamorro” self-determination, when it required that
the registration method and educational campaign
programs for the Plebiscite were to be developed in
consultation with the “Commission on Decolonization
for the Implementation and Exercise of Chamorro Self
Determination.” See id., §§ 1-3.
Defendants also argue that the discriminatory
purpose must be the primary or dominant factor in
creating the legislation, citing to Bush v. Vera, 517
U.S. 952 (1996); and Miller v. Johnson, 515 U.S. 900
(1995). See Defs.’ Opp’n., ECF No. 112, at 11. These
cases are inapposite. Both Vera and Miller deal with
the constitutionality of redistricting legislations. The
Supreme Court explicitly recognized the complexity of
electoral districting and thus placed a burden on the

App-68
plaintiff to show that “race was the predominant
factor motivating the legislature’s decision to place a
significant number of voters within or without a
particular district.” Miller, 515 U.S. at 913-16.
In this case, “[r]acial discrimination need only be
one purpose, and not even a primary purpose, of an
official act in order for a violation of the Fourteenth
and the Fifteenth Amendments to occur.” Velasquez v.
City of Abilene, 725 F.2d 1017, 1022 (5th Cir. 1984)
(citing Arlington Heights, 429 U.S. at 265).
Based on the foregoing, the court finds that the
Plebiscite law violates the Fifteenth Amendment.
iii. The Plebiscite is an election within
the meaning of the Fifteenth
Amendment.
Defendants contend that the Plebiscite is not an
election within the meaning of the Fifteenth
Amendment because “no public official will be elected,
nor will any issue of state law or policy be decided.”
See Defs.’ Opp’n., ECF No. 112, at 13-14. Defendants
argue that the Plebiscite’s purpose is merely to
ascertain the intent of the Native Inhabitants of Guam
as to their future political relationship with the United
States. Id.at 14. The court finds Defendants’ argument
to be without merit.
The U.S. Supreme Court has held that the
Fifteenth Amendment includes “any election in which
public issues are decided or public officials selected.”
Terry v. Adams, 345 U.S. 461, 468 (1953) (emphasis
added). In this case, ascertaining the future political
relationship of Guam to the United States is a public
issue that affects not just the Native Inhabitants of
Guam but rather, the entire people of Guam. Every

App-69
Guam resident otherwise qualified to vote can claim a
profound interest in the outcome of the Plebiscite. The
result of the Plebiscite will be transmitted to the
President and Congress, as well as to the United
Nations. See 1 Guam Code Ann. §2105. It is also very
likely that the government of Guam and its political
leaders will use the Plebiscite result as the starting
point in working towards achieving the “Native
Inhabitants of Guam’s” desired political relationship
with the United States. The Ninth Circuit recognized
the important implications of the Plebiscite and noted
that “[i]f the plebiscite is held, this would make it more
likely that Guam’s relationship to the United States
would be altered to conform to that preferred outcome,
rather than one of the other options presented in the
plebiscite, or remaining a territory.” Davis v. Guam,
785 F.3d 1311, 1315 (9th Cir. 2015).
Accordingly, this court finds that the Plebiscite is
an election that falls within the meaning of the
Fifteenth Amendment.
B. Guam law on voter qualification for the
Plebiscite violates the Fourteenth
Amendment’s Equal Protection Clause.
The Fourteenth Amendment provides that no
State shall “deny to any person within its jurisdiction
the equal protection of the laws.” U.S. Const. amend.
XIV. The Equal Protection Clause of the Fourteenth
Amendment applies to Guam. See 48 U.S.C. §1421b(u)
(“The following provisions of and amendments to the
Constitution of the United States are hereby extended
to Guam . . . and shall have the same force and effect
there as in the United States or in any State of the

App-70
United States: . . . the second sentence of section 1 of
the fourteenth amendment[.]”).
“[T]he Equal Protection Clause demands that
racial classifications . . . be subjected to the ‘most rigid
scrutiny.’” Loving v. Virginia, 388 U.S. 1, 11 (1967).
Judicial review must begin from the position that “any
official action that treats a person differently on
account of his race or ethnic origin is inherently
suspect.” Fisher v. University of Texas at Austin, 133
S.Ct. 2411, 2419 (2013) (citations omitted). See also
Korematsu v. United States, 323 U.S. 214, 216 (1944).
The law is well established that “a citizen has a
constitutionally protected right to participate in
elections on an equal basis with other citizens in the
jurisdiction.” Dunn v. Blumstein, 405 U.S. 330, 336
(1972). Any racial classification will only be allowed if
the government proves “that the reasons . . . are
clearly identified and unquestionably legitimate.”
Fisher, 133 S.Ct. at 2419 (internal quotes and brackets
omitted). In other words, racial classifications must be
narrowly tailored to further compelling governmental
interests. Grutter v. Bollinger, 123 S.Ct. 2325, 326
(2003).
In this case, Plaintiff’s arguments are straight
forward. First, Plaintiff alleges that Guam “has never
come close to articulating a compelling state interest
to justify its discriminatory voting scheme.” Pl.’s
Mem., ECF No. 104, at 22. Plaintiff contends that
Guam’s only reason for the Plebiscite is that “only
Chamorros should have the right to vote in the
Plebiscite and determine Guam’s future political
status.” Id. at 23. Second, Plaintiff alleges that the
classification cannot survive strict scrutiny because

App-71
“its method of achieving its goal is not narrowly
tailored.” Id. at 24. Guam has not “explained why no
race-neutral alternative to invoking the election
machinery of the state could achieve its asserted
goals.” Id. (emphasis in original omitted).
Defendants, on the other hand, argue that the law
is facially neutral, i.e., the term “Chamorro” is not
even used in the Plebiscite law defining Native
Inhabitants of Guam. See Defs.’ Opp’n., ECF No. 112
at 5-6. Therefore, Defendants argue that Plaintiff
must prove discriminatory purpose in order for strict
scrutiny to apply. Id. at 5, 12-13. Defendants urge the
court to apply rational basis standard instead. Id. at
12-13, 19, 22-23. When reviewing statutes that deny
some residents the right to vote, rational basis does
not apply. See Kramer v. Union Free School Dist.
No. 15, 395 U.S. 621, 627-28 (1969). However, even
assuming that discriminatory purpose is necessary
under the Fourteenth Amendment in cases such as
this—where others are excluded and denied the right
to register to vote—this court has already made a
finding that discriminatory purpose exists under the
Fifteenth Amendment and therefore finds it
unnecessary to further discuss it under the
Fourteenth Amendment.
In applying strict scrutiny, the court must
carefully scrutinize whether each otherwise qualified
voter “has, as far as is possible, an equal voice” in the
Plebiscite. Kramer, 395 U.S. at 627. In Cipriano v. City
of Houma, the Supreme Court explained that
“whether the statute allegedly so limiting the
franchise denies equal protection of the laws to those
otherwise qualified voters who are excluded depends

App-72
on whether all those excluded are in fact substantially
less interested or affected than those the statute
includes.” 395 U.S. 701, 704 (1969) (internal quotes
omitted) (emphasis added). Put simply, the racial
classification must be narrowly tailored so that the
exclusion of otherwise qualified voters is necessary to
achieve the articulated state goal. Kramer, 395 U.S. at
632.
The Plebiscite statute “contains a classification
which excludes otherwise qualified voters who are as
substantially affected and directly interested in the
matter voted upon as are those who are permitted to
vote.” Cipriano, 395 U.S. at 706. All Guam voters have
a direct interest and will be substantially affected by
any change to the island’s political status—whether it
be for statehood, wherein Guam will petition the
United States to be admitted into statehood; or for
independence, wherein Guam will sever its ties with
the United States; or for free association, wherein
Guam will be freely associated with the United States.
As discussed supra, “[i]f the plebiscite is held, this
would make it more likely that Guam’s relationship to
the United States would be altered to conform to that
preferred outcome[.]” Davis, 785 F.3d at 1315. This
change will affect not just the “Native Inhabitants of
Guam,” but every single person residing on this island.
There is no evidence that all those excluded (the nonNative Inhabitants of Guam) are in fact substantially
less interested or affected than those the statute
includes. See Cipriano, 395 U.S. at 704. Defendants
have not shown that the exclusion of others is
necessary to promote a compelling state interest.

App-73
Defendants maintain that the Plebiscite should
only be for the Native Inhabitants of Guam because
they are colonized people who have the right to selfdetermination. See Defs.’ Opp’n., ECF No. 112, at 1718. Defendants quoted Akina v. Hawaii, 141
F.Supp.3d 1106, 1132 (D. Haw. 2015), wherein in
discussing strict scrutiny, the district court noted that
the state of Hawaii has “a compelling interest in
bettering the conditions of its indigenous people and,
in doing so, providing dignity in simply allowing a
starting point for a process of self-determination.” Id.
at 18-19. Akina involves an election organized by a
non-profit corporation, whose purpose was to support
efforts to achieve Native Hawaiian self-determination.
141 F.Supp.3d at 1111-18. Qualified voters for said
election must be a “qualified Native Hawaiian.” Id. at
1111-12. Despite the district court making a finding
that strict scrutiny would be met because of the
Hawaiian history and Hawaii’s trust relationship with
Native Hawaiians, the court found that the election
did not violate the Equal Protection Clause, because
there was no “state action.” Id. at 1127-28, 1131.
This court will not entertain the strict scrutiny
analysis provided in Akina, because Akina is a district
court decision that has not been reviewed by an
appellate court and is non-binding to this court. In
addition, the instant case is distinguishable in that
the Plebiscite statute was created by the Guam
Legislature, and the election is going to be conducted
by the Guam Election Commission (a Government of
Guam entity) in an island-wide general election. See
Pub. Law Nos. 25-106 and 27-106. Unlike Akina, the
Plebiscite is a government-sanctioned election.

App-74
Next, Defendants maintain that limiting the
Plebiscite to the “Native Inhabitants of Guam” would
allow for the United States to uphold its “international
obligations” to the native inhabitants as colonized
people. 16 See Defs.’ Opp’n., ECF No. 112, at 17, 21.
Defendants, however, failed to provide this court with
any legal authority—whether it be international law
or a binding international treaty or agreement—that
allows for this court to disregard or circumvent the
U.S. Constitution and the laws of the United States,
so that the Plebiscite can proceed despite the racial
classification.
The racial classification must fail strict scrutiny,
because Defendants also have not shown that the
government’s method of achieving its goal is narrowly
tailored. There are other alternatives for the
government to determine the desires of the colonized
people, who have the right to self-determination. For
example, as discussed at the hearing, the government
can consider less restrictive means, such as
conducting a poll with the assistance of the University
of Guam.

Defendants rely on authorities such as (1) the congressional
reports surrounding the enactment of Guam’s Organic Act, 1950
U.S.C.C.A.N. 2840, 2841; (2) the United Nations Resolution on
“Plan of the Action for the Full Implementation of the Declaration
of the Granting of Independence on Colonial Countries and
Peoples,” G.A. Res. 35/118, U.N. GAOR, 35th Sess., Supp. No. 48,
at 21, U.N. Doc. AIRES/35/118 (1980); (3) Murray v. Schooner
Charming Betsy, 6 U.S. (2 Cranch) 64 (1804); and (4) the
Restatement (Third) of Foreign Relations Law §114 (1987). See
Defs.’ Opp’n., ECF No. 112, at 12-21.
16

App-75
Accordingly, based on the discussion above, the
court finds that the Plebiscite law violates the Equal
Protection Clause of the Fourteenth Amendment.
C. The Insular Cases Doctrine is not
applicable in this case.
Defendants argue that “Plaintiff’s attempt to
characterize his ability to vote in the plebiscite as a
‘fundamental’ right is misguided from the start
because the ‘right to vote’ does not necessarily mean
the same thing in an unincorporated territory as it
does in a state, or other integral part of the ‘United
States,’” citing to the Insular Cases. Defs.’ Opp’n., ECF
No. 112, at 19-23. The court finds Defendants’
argument to have no merit.
“The Insular Cases held that United States
Constitution applies in full to incorporated territories,
but that elsewhere, absent congressional extension,
only fundamental constitutional rights apply in the
territory.” Davis, 844 F.3d at 1095, citing Wabol v.
Villacrusis, 958 F.2d 1450, 1459 (9th Cir. 1990), and
Boumediene v. Bush, 553 U.S. 723, 756-57 (2008)
(internal quotation marks and brackets omitted).
Congress has explicitly extended the Fifteenth
Amendment and the Equal Protection Clause of the
Fourteenth Amendment to Guam when it enacted the
Organic Act of Guam. See 48 U.S.C. §1421b(u).
Accordingly, Defendants’ use of the Insular Cases
doctrine to support their argument in this case fails.
V. CONCLUSION
The court recognizes the long history of
colonization of this island and its people, and the
desire of those colonized to have their right to selfdetermination. However, the court must also

App-76
recognize the right of others who have made Guam
their home. The U.S. Constitution does not permit for
the government to exclude otherwise qualified voters
in participating in an election where public issues are
decided simply because those otherwise qualified
voters do not have the correct ancestry or bloodline.
Having found that the classification is racial, this
court finds that the Plebiscite statute impermissibly
imposes race-based restrictions on the voting rights of
non- Native Inhabitants of Guam, in violation of the
Fifteenth Amendment.
Further, the court also finds that the Plebiscite
statute violates the Fourteenth Amendment.
Because
the
Fifteenth
and
Fourteenth
Amendments are clearly violated in this case, the
court need not address the statutory arguments
(Voting Rights Act and Organic Act of Guam) that
were raised by Plaintiff.
The court hereby ORDERS the following:
(1) Plaintiff’s Motion for Summary Judgment
(ECF No. 103 and 104) is hereby GRANTED. 17
(2) Defendant’s Motion for Summary Judgment
(ECF No. 106) is hereby DENIED as MOOT. 18
(3) The court PERMANENTLY ENJOINS the
Government of Guam and its officers, employees,
agents, and political subdivisions from enforcing the
Political Status Plebiscite (1 Guam Code Ann. § 2110)
17

All other pending motions in this case are hereby MOOT.

18 Because Plaintiff’s Motion Summary Judgment is granted,
the court need not discuss Defendants’ Motion for Summary
Judgment.

App-77
that specifically limits the voters to “Native
Inhabitants of Guam” as defined in 3 Guam Code Ann.
§21001(e), and any laws and regulations designed to
enforce the Plebiscite law, insofar as such enforcement
would prevent or hinder Plaintiff and other qualified
voters who are not Native Inhabitants of Guam from
registering for and voting in the Political Status
Plebiscite.
(4) The Clerk is directed to enter judgment for
Plaintiff.
SO ORDERED.
/s/ Frances M. Tydingco-Gatewood
Chief Judge
Dated: Mar 08, 2017

App-78
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 13-15199
________________
ARNOLD DAVIS, on behalf of himself and all others
similarly situated,
v.

Plaintiff-Appellant,

GUAM; GUAM ELECTION COMMISSION; ALICE M.
TAIJERON; MARTHA C. RUTH; JOSEPH F. MESA; JOHNNY
P. TAITANO; JOSHUA F. RENORIO; DONALD I. WEAKLEY;
LEONARDO M. RAPADAS,
Defendants-Appellees.
________________
Argued and Submitted: Aug. 27, 2014
Hagatna, Guam
Filed: May 8, 2015
________________
Before: Mary M. Schroeder, Alex Kozinski, and
N. Randy Smith, Circuit Judges.
________________
OPINION
________________
KOZINSKI, Circuit Judge:
Pursuant to a law passed by the Guam
legislature, eligible “Native Inhabitants of Guam” may
register to vote in a plebiscite concerning Guam’s

App-79
future political relationship with the United States.
Guam will conduct the plebiscite if and when 70
percent of eligible Native Inhabitants register.
Plaintiff Arnold Davis is a Guam resident who isn’t
eligible to register because he is not a Native
Inhabitant. He alleges that Guam’s Native Inhabitant
classification is an unlawful proxy for race. At this
stage, we must determine only whether Davis has
standing to challenge the classification and whether
his claims are ripe.
I.

BACKGROUND

Guam law directs the territory’s Commission on
Decolonization to “ascertain the intent of the Native
Inhabitants of Guam as to their future political
relationship with the United States of America.” 1
Guam Code Ann. § 2105. The same law also provides
for a “Political Status Plebiscite.” Id. § 2110. The
plebiscite would ask eligible Native Inhabitants to
choose among three options: (1) “Independence,”
(2) “Free Association with the United States of
America” or (3) “Statehood.” Id. It would be conducted
by Guam’s Election Commission on the same day as a
general
election.
Id.
The
Commission
on
Decolonization would then be required to transmit the
plebiscite’s results to the President, Congress and the
United Nations as reflecting “the intent of the Native
Inhabitants of Guam as to their future political
relationship with the United States.” Id. § 2105.
Guam will hold the plebiscite if and when 70
percent of all eligible Native Inhabitants1 register
1 Guam law defines “Native Inhabitants” as persons who
became U.S. citizens by virtue of the Guam Organic Act of 1950
and their descendants. 1 Guam Code Ann. § 2102. The Organic

App-80
with the Guam Decolonization Registry. 1 Guam Code
Ann. § 2110; 3 Guam Code Ann. §§ 21000, 21003.
Native Inhabitants aren’t required to register,
although some will be registered automatically unless
they submit a written request not to be registered. 3
Guam Code Ann. § 21002.1. Guam reports that the 70
percent threshold isn’t close to being met. Thus, Guam
hasn’t set a date for the plebiscite and perhaps never
will.
Davis tried to register with the Decolonization
Registry, but the application was rejected because
Davis isn’t a Native Inhabitant. Davis agrees he’s not
a Native Inhabitant but claims that the Native
Inhabitant
classification
violates
the
Fifth,
Fourteenth and Fifteenth Amendments, as well as the
Voting Rights Act and the Guam Organic Act 2 because
it is a “proxy for race.” Davis seeks a declaration that
limiting registration to Native Inhabitants is
Act granted citizenship to three classes of persons: (1) Spanish
subjects who inhabited Guam on April 11, 1899, when Spain
ceded Guam to the United States in the Treaty of Paris (and their
children); (2) persons who were born on Guam and resided there
on April 11, 1899 (and their children); and (3) persons born on
Guam on or after April 11, 1899, when Guam was subject to U.S.
jurisdiction. See Organic Act of Guam, Pub. L. No. 630, 64 Stat.
384, 384 (Aug. 1, 1950).
The Organic Act extends the rights afforded by several
constitutional provisions to Guam, including the Fifth
Amendment, the Equal Protection Clause of the Fourteenth
Amendment and the Fifteenth Amendment. 48 U.S.C.
§ 1421b(u); Guam v. Guerrero, 290 F.3d 1210, 1214-15 (9th Cir.
2002). The Organic Act also contains its own anti-discrimination
provisions. See, e.g., 48 U.S.C. § 1421b(n). The Voting Rights Act
applies to Guam, a U.S. territory. 52 U.S.C. § 10101(a)(1)
(formerly 42 U.S.C. § 1971(a)(1)).
2

App-81
unlawful, and an injunction against using any registry
other than Guam’s general voter registry in
determining who’s eligible to register for, and vote in,
the plebiscite.
The district court held that Davis lacks standing
and his claims are unripe. According to the district
court, Davis hasn’t been injured because “there is no
discernible future election in sight.” “To suffer a real
discernible injury,” the district court held, Guam’s
restriction on voter registration to Native Inhabitants
“would have to be, by necessity, related to an election
that is actually scheduled.” We have jurisdiction
pursuant to 28 U.S.C. § 1291 and review de novo. Bova
v. City of Medford, 564 F.3d 1093, 1095 (9th Cir. 2009).
II. STANDING AND RIPENESS
To “satisfy the standing requirements imposed by
the ‘case’ or ‘controversy’ provision of Article III,”
Davis must show that he has suffered, or will
imminently suffer, a “concrete and particularized”
injury to a “judicially cognizable interest.” Bennett v.
Spear, 520 U.S. 154, 167 (1997); see also Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560-61 (1992).
That injury must be “fairly traceable to the challenged
action of the defendant[s],” and it must appear likely
that the injury would be prevented or redressed by a
favorable decision. Bennett, 520 U.S. at 167; see also
Allen v. Wright, 468 U.S. 737, 751 (1984). When
determining Article III standing we “accept as true all
material allegations of the complaint” and “construe
the complaint in favor of the complaining party.” Maya
v. Centex Corp., 658 F.3d 1060, 1068 (9th Cir. 2011)
(quoting Warth v. Seldin, 422 U.S. 490, 501 (1975)).

App-82
Guam law gives some of its voters the right to
participate in a registration process that will
determine whether a plebiscite will be held. Davis
alleges that the law forbids him from participating on
the basis of his race. Davis’s allegation—that Guam
law provides a benefit to a class of persons that it
denies him—is “a type of personal injury [the Supreme
Court has] long recognized as judicially cognizable.”
Heckler v. Mathews, 465 U.S. 728, 738 (1984). The
plaintiff in Mathews challenged a provision of the
Social Security Act that required certain male workers
(but not female workers) to make a showing of
dependency as a condition for receiving full spousal
benefits. Id. at 731-35. The statute, however,
“prevent[ed] a court from redressing this inequality by
increasing the benefits payable to” the male workers.
Id. at 739. Thus, the lawsuit couldn’t have resulted in
any tangible benefit to Mathews. The Supreme Court
nevertheless held that Mathews had standing to
challenge the provision because he sought to vindicate
the “right to equal treatment,” which isn’t necessarily
“coextensive with any substantive rights to the
benefits denied the party discriminated against.” Id.;
see also Allen, 468 U.S. at 762; 13A Charles Alan
Wright, Arthur R. Miller & Edward H. Cooper,
Federal Practice & Procedure §§ 3531.4 at 215-16,
3531.6 at 454-56 (3d ed. 2008). We read Mathews as
holding that equal treatment under law is a judicially
cognizable interest that satisfies the case or
controversy requirement of Article III, even if it brings
no tangible benefit to the party asserting it. Guam’s
alleged denial of equal treatment to Davis is thus a
judicially cognizable injury.

App-83
Guam concedes that its law excludes Davis from
the registration process because he’s not a Native
Inhabitant. It argues, however, that the Native
Inhabitant classification can’t injure Davis because
the plebiscite is “not self executing and effects no
change in political status, right, benefit or privilege for
any individual.” But this contradicts Mathews, which
held that unequal treatment is an injury even if curing
the inequality has no tangible consequences. 465 U.S.
at 739. Moreover, Guam understates the effect of any
plebiscite that would be held if the registration
threshold were triggered. After the plebiscite, the
Commission on Decolonization would be required to
transmit the results to the President, Congress and
the United Nations, 1 Guam Code Ann. § 2105,
thereby taking a public stance in favor of whatever
outcome is favored by those voting in the plebiscite.3
If the plebiscite is held, this would make it more likely
that Guam’s relationship to the United States would
be altered to conform to that preferred outcome, rather
than one of the other options presented in the
plebiscite, or remaining a territory. This change will
affect Davis, who doubtless has views as to whether a
change is appropriate and, if so, what that change
should be. Guam law thus does provide a tangible
benefit to Native Inhabitants that Davis alleges he is
unlawfully denied: the right to help determine
The U.S. House of Representatives, for one, has indicated that
it has open ears. In a 1998 resolution, it acknowledged the
Commission on Decolonization and “reaffirm[ed] its commitment
to the United States citizens of Guam for increased selfgovernment, consistent with self-determination for the people of
Guam.” H.R. Res. 494, 105th Cong., 144 Cong. Rec. 25922, 2592223 (1998).
3

App-84
whether a plebiscite is held. This is not unlike the
right to participate in jury service, which may not be
denied on a constitutionally unequal basis. See Batson
v. Kentucky, 476 U.S. 79, 87 (1986) (citing Carter v.
Jury Comm’n of Greene Cnty., 396 U.S. 320, 329-30
(1970)). 4
Davis’s challenge to the Native Inhabitant
classification is also ripe because he alleges he’s
currently being denied equal treatment under Guam
law. The registration process is ongoing and Guam
must hold the plebiscite if 70 percent of eligible Native
Inhabitants register. By being excluded from the
registration process, Davis claims he is unlawfully
denied a right currently enjoyed by others: to help
determine whether a plebiscite will be held. The
ripeness question thus “coincides squarely with
standing’s injury in fact prong.” Bova, 564 F.3d at
1096 (quoting Thomas v. Anchorage Equal Rights
Comm’n, 220 F.3d 1134, 1138 (9th Cir. 2000) (en
banc)); see also 13B Federal Practice & Procedure
§ 3531.12 at 163.
Guam maintains that its plebiscite law does not,
in fact, violate Equal Protection, the Fifteenth
Although Batson involved a criminal defendant’s challenge to
his conviction, the Court reiterated its holding in Carter that
when a state “den[ies] a person participation in jury service on
account of his race, the [s]tate unconstitutionally discriminate[s]
against the excluded juror.” Batson, 476 U.S. at 87; see also
Carter, 396 U.S. at 329 (“People excluded from juries because of
their race are as much aggrieved as those indicted and tried by
juries chosen under a system of racial exclusion.”). Whether
participation in Guam’s registration process is “deemed a right,
a privilege, or a duty,” Guam must “hew to federal constitutional
criteria” when determining who is eligible to register. Id. at 330.
4

App-85
Amendment or the Voting Rights Act. But we need not
resolve these issues to determine whether Davis’s
claims satisfy the case or controversy requirement of
Article III. These are merits questions, and standing
doesn’t “depend[] on the merits of the plaintiff’s
contention that particular conduct is illegal.” Warth,
422 U.S. at 500.
CONCLUSION

Davis’s challenge to Guam’s registration
restriction asserts a judicially cognizable injury that
would be prevented or redressed if the district court
were to grant his requested relief. Davis therefore has
Article III standing to pursue his challenge to Guam’s
alleged race-based registration classification. The
claim is ripe because Davis alleges he is currently
subject to unlawful unequal treatment in the ongoing
registration process. Therefore, we need not decide
whether any of the other injuries Davis alleges follow
from Guam’s Native Inhabitant restriction would be
sufficient to confer standing independently. In
particular, we express no view as to whether the
challenged law resulted in the type of “stigmatizing”
harm that we’ve held may be a judicially cognizable
injury in the Establishment Clause context. See
Catholic League v. City & Cnty. of S.F., 624 F.3d 1043,
1052-53 (9th Cir. 2010) (en banc). Nor do we decide
whether an alleged violation of the Voting Rights Act
is itself a judicially cognizable injury.
In the district court, Davis also sought to enjoin
Leonardo Rapadas, the Attorney General of Guam,
from enforcing a provision of Guam’s criminal law that
makes it a crime for a person who knows he’s not a
Native Inhabitant to register for the plebiscite. See 3

App-86
Guam Code Ann. § 21009. The district court held that
Davis lacked standing to seek this injunction because
he had not “shown that he is subject to a genuine
threat of imminent prosecution.” While Rapadas is
still listed as a nominal defendant on appeal, Davis
doesn’t argue that the district court erred in
dismissing this claim. Therefore, any claim of error is
waived. See Wagner v. Cnty. of Maricopa, 747 F.3d
1048, 1059 (9th Cir. 2013).
We decline Davis’s suggestion that we reach the
merits of his claims in the event we find his claims to
be justiciable. Instead we leave it to the district court
to consider the merits of Davis’s non-waived claims in
the first instance.
AFFIRMED in part, REVERSED in part, and
REMANDED.
Appellees other than Rapadas shall pay
costs on appeal. Rapadas shall recover his
costs, if any, from Davis.

App-87
N.R. SMITH, Circuit Judge, dissenting:
The majority holds that federal courts have
jurisdiction in this case based on precedent not
applicable to its decision. For that reason, I must
dissent.
Currently Guam is an unincorporated, organized
territory of the United States. 1 Guam’s legislature
found that the native inhabitants of Guam “have been
subjected to incessant control by external colonial
powers” and have never been afforded the right to selfdetermination as to their political relationship with
the United States. 1 Guam Code. Ann. § 2101.
Therefore, in 2004, Guam’s legislature enacted 1
Guam Code. Ann. § 2110. It provides:
(a) The Guam Election Commission shall
conduct a “Political Status Plebiscite”, at
which the following question, which shall be
printed in both English and Chamorro, shall
be asked of the eligible voters:
In recognition of your right to selfdetermination, which of the following
political status options do you favor? (Mark
ONLY ONE):
1. Independence ( )
Guam became an “organized” territory after Congress enacted
the Guam Organic Act in 1950, which granted the people of Guam
United States citizenship and established institutions of local
government. Guam is “unincorporated,” because not all
provisions of the U.S. Constitution apply to the territory. DOI
Dep’t of Insular Aff., Report on the State of the Islands (1997),
http://www.doi.gov/oia/reports/Chapter-4-Guam.cfm (last visited
Apr. 15, 2015).
1

App-88
2. Free Association with the United
States of America ( )
3. Statehood ( ).
Person eligible to vote shall include those
persons designated as Native Inhabitants of
Guam, as defined within this Chapter of the
Guam Code Annotated, who are eighteen (18)
years of age or older on the date of the
“Political Status Plebiscite” and are
registered voters on Guam.
The “Political Status Plebiscite” mandated in
Subsection (a) of this Section shall be held on
a date of the General Election at which
seventy percent (70%) of the eligible voters,
pursuant to this Chapter, have been
registered as determined by the Guam
Election Commission.
From the plain language of the statute, it is
apparent that (1) the Guam legislature wants to
gather the opinion of the Native Inhabitants of Guam
regarding political status options; (2) to gather that
opinion, the legislature scheduled a future plebiscite
(poll) asking for an indication of what political status
option is favored by such Native Inhabitants; and (3)
the poll will not occur unless seventy percent of the
Native Inhabitants of Guam register to be polled.
It is a fundamental principle that federal courts
are courts of limited jurisdiction, limited to deciding
“cases” and “controversies.” U.S. Const. art. III, § 2.
The Supreme Court has repeatedly insisted that a
case or controversy does not exist, unless the plaintiff
shows that “he has sustained or is immediately in
danger of sustaining some direct injury as the result

App-89
of the challenged official conduct.” City of L.A. v.
Lyons, 461 U.S. 95, 102 (1983) (internal quotation
marks omitted) (emphasis added). The Court
admonished that the “injury or threat of injury must
be both real and immediate, not conjectural or
hypothetical.” Id. (internal quotation marks omitted)
(emphasis added). “[R]ipeness is peculiarly a question
of timing,” and ripeness is particularly at issue when
a party seeks pre-enforcement review of a statute or
regulation. Thomas v. Anchorage Equal Rights Com’n,
220 F.3d 1134, 1138 (9th Cir. 2000). A “claim is not
ripe for adjudication if it rests upon contingent future
events that may not occur as anticipated, or indeed
may not occur at all.” Bova v. City of Medford, 564 F.3d
1093, 1096 (9th Cir. 2009) (quoting Texas v. United
States, 523 U.S. 296, 300 (1998)). The Supreme Court
has consistently held that the ripeness doctrine aims
“to prevent the courts, through premature
adjudication, from entangling themselves in abstract
disagreements.” Thomas v. Union Carbide Agric.
Prods. Co., 473 U.S. 568, 580 (1985) (internal
quotation marks omitted). “Where a dispute hangs on
future contingencies that may or may not occur, it may
be too impermissibly speculative to present a
justiciable controversy.” In re Coleman, 560 F.3d 1000,
1005 (9th Cir. 2009) (internal quotation marks and
citations omitted).
The district court found Davis’s alleged injury was
not ripe. “Although a district court’s determination of
federal subject matter jurisdiction is reviewed de novo,
the district court’s factual findings on jurisdictional
issues must be accepted unless clearly erroneous.”
Stock W., Inc. v. Confederated Tribes of the Colville
Reservation, 873 F.2d 1221, 1225 (9th Cir. 1989)

App-90
(internal citations omitted). The district court
conducted a hearing and then made certain factual
findings as to the ripeness of Davis’s claim. The
district court found that: (1) there is no date currently
set for the plebiscite; (2) “there is no discernible future
election in sight”; (3) there is no “real threat of the
election occurring any time soon”; (4) there is “little
likelihood that the plebiscite will be scheduled any
time in the near future”; (5) Davis’s own statements
actually support the conclusion that the “plebiscite is
not likely to occur any time soon, or if at all”; (6) Davis
had not “successfully argued [or] shown that he is
presently threatened with or has already suffered any
irreparable damage or injury because he cannot
register for a plebiscite that is more than likely not to
occur.” The district court concluded that “until the
plebiscite [Davis] seeks to register for is “certainly
impending,” that Davis had no claim.
The district court’s factual findings are supported
by the record. Davis does not challenge the findings as
clearly erroneous. The majority does not hold the
findings to be clearly erroneous. Applying the ripeness
precedent to these findings, this controversy fails for
ripeness. The inability to register for an opinion poll,
that is not currently scheduled and unlikely to ever
occur, is not a matter of “sufficient ripeness to
establish a concrete case or controversy.” Thomas, 473
U.S. at 579. Whether the plebiscite occurs is
contingent on a series of events that have not yet
occurred and may never occur. Thus, at this point,
there is not a “realistic danger” that the plebiscite will
occur. Babbitt v. United Farm Workers Nat’l. Union,
442 U.S. 289, 298 (1979). Our court’s role is “neither
to issue advisory opinions nor to declare rights in

App-91
hypothetical cases, but to adjudicate live cases or
controversies.” Thomas v. Anchorage Equal Rights
Comm’n, 220 F.3d 1134, 1138 (9th Cir. 2000). Davis’s
allegations of future injury are too speculative to be “of
sufficient immediacy and reality” to satisfy the
constitutional requirement of ripeness. See In re
Coleman, 560 F.3d at 1005. 2 Thus, the matter is not
ripe and our court has no jurisdiction.
In its decision, the majority instead concludes
that Davis has standing to challenge the plebiscite,
not based on voting rights cases, but based on one’s
ability to seek Social Security benefits. 3 In fact, the
The Sixth Circuit appears to be the only Circuit that has
directly addressed the question of when an alleged deprivation of
voting rights is ripe. The court found the Constitution protects an
individual’s “fundamental right to vote not the right to register to
vote.” Lawson v. Shelby Cnty., 211 F.3d 331, 336 (6th Cir. 2000)
(emphasis added). Accordingly, the court found that the cause of
action accrued on election day, “when [the plaintiffs] presented
themselves at their polling station and were refused the right to
vote,” not when they were “notified that their registrations had
been rejected” for refusing to provide social security numbers. Id.
Unlike this case, the “vote” at issue in Lawson involved an actual
election.
2

I note the majority also cites Batson v. Kentucky, 476 U.S. 79,
85-86 (1986) to support its position. Op. 8. However, in Batson,
the United States Supreme Court held that a prosecutor’s use of
peremptory challenges based on race violates the Equal
Protection Clause of the Fourteenth Amendment. Batson, 476
U.S. at 85-86. The Court’s focus was protecting the defendant’s
constitutional right to a trial by jury. Id. The Court found that
the jury must be “indifferently chosen to secure the defendant’s
right under the Fourteenth Amendment.” Id. at 87 (internal
quotation marks omitted) (emphasis added). It is difficult to
understand how the majority extrapolated the holding in this
case to its conclusion that Davis’s right to register for the
plebiscite “is not unlike the right to participate in jury service,
3

App-92
majority cites no precedent suggesting that forbidding
Davis from registering for this plebiscite implicates
the voting rights protected under the Constitution.
The Fifteenth Amendment only applies to an “election
in which public issues are decided or public officials
selected.” Terry v. Adams, 345 U.S. 461, 468 (1953)
(emphasis added). Davis does not allege that he is
being denied the right to register for an election. Davis
does not allege the plebiscite will select “candidates for
public or party office.” See 52 U.S.C. § 10310(c). Davis
does not allege the plebiscite will change Guam’s
Constitution. Davis does not allege the plebiscite will
enact, amend, or repeal any statute. Despite the
language in the majority’s opinion to the contrary,
Davis does not allege the plebiscite will change the
rights of Guam’s citizens or that the plebiscite itself
will change or decide Guam’s political status in
relationship with the United States. Rather, the
injury alleged by Davis is merely being denied the
right to register to participate in an opinion poll that
will likely never occur. Clearly, the inability to register
for this opinion poll is not equivalent to being denied
the right to register to vote in the type of vote
contemplated and protected by the Constitution.
Even if prohibiting Davis from registering for the
plebiscite were a violation of his voting rights, this
case “involves too remote and abstract an inquiry for
the proper exercise of the judicial function.” Texas v.
United States, 523 U.S. 296, 300 (1998). The plebiscite
is not currently scheduled and as the district court
found, it is not likely to ever occur! The condition
which may not be denied on a constitutionally unequal basis.” Op.
8.

App-93
precedent to even scheduling the opinion poll is
obtaining the registration of seventy percent of the
eligible voters. Failing to satisfy this requirement (an
event that even Davis describes as a “mirage”), the poll
will not take place. Yet, amazingly, the majority finds
these circumstances present a case ripe for resolution.
The majority mistakenly suggests that Heckler v.
Mathews, 465 U.S. 728 (1984) would apply. 4 However,
in Mathews, there was no question that Social
Security pension benefits would be paid. There was no
uncertainty as to application of the allegedly
unconstitutional pension offset provision. Thus, there
was no question the issue was ripe. Indeed, the Court
was not asked to determine ripeness and the Court did
not address ripeness. Rather, the issue before the
Court was determining the plaintiff’s standing. The
Court was asked to answer the question of whether
the plaintiff’s standing was dependant on his ability to
receive additional benefits if he prevailed. See
Mathews, 465 U.S. at 735-38.
The plaintiff in Mathews claimed that he was subjected to
unequal treatment as to Social Security benefits “solely because
of his gender.” Mathews, 465 U.S. at 738. Specifically, the
plaintiff alleged that “as a nondependent man, he receiv[ed]
fewer benefits than he would if he were a similarly situated
woman.” Id. The Court focused on two factors when determining
the plaintiff had standing (1) his injury was concrete as “there
was no doubt about the direct causal relationship between the
government’s alleged deprivation of appellee’s right to equal
protection and the personal injury appellee has suffered—denial
of Social Security benefits solely on the basis of his gender”;
(2) that he was denied equal treatment solely because of gender
(a protected class). Id. at 739-40 & n.9. The court concluded that
the plaintiff’s standing did not depend on his ability to obtain
increased Social Security benefits if he prevailed. Id. at 737.
4

App-94
Thus, the majority’s conclusion that this case is
ripe is without precedent and ignores the district
court’s extensive factual findings as to ripeness. Can
you imagine the hours the district court will now have
to spend resolving Davis’s many alleged claims,
including claims of alleged unequal treatment under
the Fourteenth Amendment, alleged stigmatizing
harm under the Establishment Clause, alleged
violations of the Voting Rights Act, even though this
plebiscite will never occur?
Given the speculative and remote course of events
that stands between Davis and his contemplated
injury, this matter is not ripe for adjudication, and the
district court correctly dismissed Davis’s complaint.

App-95
Appendix D
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF GUAM
________________
No. 11-00035
________________
ARNOLD DAVIS, on behalf of himself and all others
similarly situated,
v.

Plaintiff,

GUAM; GUAM ELECTION COMMISSION; ALICE M.
TAIJERON; MARTHA C. RUTH; JOSEPH F. MESA; JOHNNY
P. TAITANO; JOSHUA F. RENORIO; DONALD I. WEAKLEY;
LEONARDO M. RAPADAS,
Defendants.
________________
Filed: Jan. 9, 2013
________________
ORDER
________________
The court accepts and adopts the Magistrate
Judge’s Report and Recommendation dated June 14,
2012 (ECF No. 44), and GRANTS the Defendants’
Motion to Dismiss.
I.

CASE OVERVIEW

This is a civil rights action which deals with the
topic of self-determination of the political status of the
island and who should have the right to vote on a
referendum concerning such. The Plaintiff claims that

App-96
he is prohibited from registering to vote on the
referendum, which is a violation of his Fourteenth and
Fifteen Amendment rights as well as a violation of the
Organic Act and the Voting Rights Act.
A. Factual Background
The following facts are taken as established for
the purpose of this motion. 1 On November 22, 2011,
Plaintiff filed his complaint for declaratory and
injunctive relief. See Compl., ECF No. 1. In the
complaint, he alleges discrimination in the voting
process by Guam and the Defendants. Id. Plaintiff
alleges that under Guam law, a ‘Political Status
Plebiscite’ is to be held concerning Guam’s future
relationship with the United States. 2 Id., ¶8. Plaintiff,
For purposes of the motion to dismiss, the court recounts the
facts as alleged in the Plaintiff’s Complaint and assumes their
veracity for the limited purposes of deciding the motion. “When
there are well-pleaded factual allegations, a court should assume
their veracity and then determine whether they plausibly give
rise to an entitlement to relief.” Ashcroft v. Iqbal, 129 S. Ct. 1937,
1950 (2009).
1

2

Plebiscite Date and Voting Ballot.

(a) The Guam Election Commission shall conduct a “Political
Status Plebiscite”, at which the following question, which
shall be printed in both English and Chamorro, shall be
asked of the eligible voters:
In recognition of your right to self-determination, which of
the following political status options do you favor? (Mark
ONLY ONE):
1. Independence ( )
2. Free Association with the United States of America ( )
3. Statehood ( ).
Person eligible to vote shall include those persons
designated as Native Inhabitants of Guam, as defined within

App-97
a white, non-Chamorro, male and resident of Guam,
states that he applied to vote for the plebiscite but was
not permitted to do so because he did not meet the
definition of “Native Inhabitant of Guam.” “Native
Inhabitants of Guam” are defined as “those persons
who became U.S. Citizens by virtue of the authority
and enactment of the 1950 Organic Act of Guam and
descendants of those persons.” 1 Guam Code Ann.
§ 2102, id., ¶¶ 20 and 21.
The Guam Legislature established a “Guam
Decolonization Registry” for the “purpose of
registering and recording the names of the Native
Inhabitants of Guam.” 3 Guam Code Ann. § 21001(d);
see Compl., ECF No. 1, ¶ 17. The law further provides
“[a]ny person who willfully causes, procures or allows
that person, or any person, to be registered with the
Guam Decolonization Registry, while knowing that
the person, or other person, is not entitled to register
with the Guam Decolonization Registry, shall be
guilty of perjury as a misdemeanor.” 3 Guam Code.
Ann. § 21009. The plebiscite would ask native
inhabitants which of the three political status options
they preferred. The three choices are Independence,

this Chapter of the Guam Code Annotated, who are eighteen
(18) years of age or older on the date of the “Political Status
Plebiscite” and are registered voters on Guam.
The “Political Status Plebiscite” mandated in Subsection (a)
of this Section shall be held on a date of the General Election
at which seventy percent (70%) of eligible voters, pursuant to
this Chapter, have been registered as determined by the
Guam Election Commission.
1 Guam Code. Ann. § 2110.

App-98
Free Association with the United States, and
Statehood. See Compl., ECF No. 1, ¶ 8.
Because the Plaintiff was denied the right to
register for the plebiscite, the Plaintiff filed the
instant complaint, stating three causes of action. In
his first cause of action, he alleges that by limiting the
right to vote in the Political Status Plebiscite to only
Native Inhabitants of Guam, the purpose and effect of
the act was to exclude him and most non-Chamorros
from voting therein, thereby resulting in a denial or
abridgment of the rights of citizens of the United
States to vote on account of race, color, or national
origin, a violation of Section 2 of the Voting Rights Act
of 1965.
In his second cause of action, Plaintiff alleges that
Defendants are preventing him from registering to
vote in the Political Status Plebiscite because he is not
a Native Inhabitant of Guam. Thus, Defendants are
engaged in discrimination on the basis of race, color,
and/or national origin in violation of various laws of
the United States.
Lastly, the Plaintiff’s third cause of action alleges
that he is being discriminated in relation to his
fundamental right to vote in the plebiscite in violation
of the Organic Act of Guam, the U.S. Constitution and
other laws of the United States for the reason that he
is not a native inhabitant of Guam.
In his Prayer for Relief, Plaintiff seeks a
judgment: enjoining Defendants from preventing
Plaintiff and those similarly situated from registering
for and voting in the Political Status Plebiscite;
enjoining the Defendants from using the Guam
Decolonization Registry in determining who is eligible

App-99
to vote in the plebiscite; enjoining enforcement of the
criminal law provisions of the Act that make it a crime
to register or allow a person to vote in the plebiscite
who is not a Native Inhabitant of Guam; and a
declaration that Defendants’ conduct has been and
would be, if continued, a violation of law.
B. Statutory History of the Plebiscite Vote
The Magistrate Judge’s recitation of the statutory
history of the plebiscite is set forth herein since there
is no objection to his representations of fact.
The current plebiscite law traces its beginnings to
P.L. 23-130, which became law on December 30, 1996.
Therein, the Guam Legislature established a
Chamorro Registry for the purpose of establishing an
index of names by the Guam Election Commission for
registering Chamorros and recording their names.
The Registry was to serve as a tool to educate
Chamorros about their status as an indigenous people
and their inalienable right to self-determination. A
week after the passage of the above referenced law,
the Guam Legislature passed P.L. 23-147. This new
law created the Commission on Decolonization for the
implementation and Exercise of Chamorro SelfDetermination (“Commission on Decolonization”). The
purpose of the Commission was to ascertain the
desires of the Chamorro people of Guam as it
pertained to their future political relationship with
the United States. The law required the Guam
Election Commission to conduct a Political Status
Plebiscite at the next Primary Election (September,
1998) during which qualified voters would be asked to
choose among three political status options. The
status options were Independence, Free Association,

App-100
and Statehood. The results of the plebiscite were to be
transmitted to the President and Congress of the
United States and the Secretary General of the United
Nations.
Seeing that no plebiscite vote occurred during the
primary election in 1998, the Guam Legislature
passed P.L. 25-106 to have the plebiscite vote take
place on July 1, 2000. The Act more importantly
changed those persons entitled to vote during the
Political Status Plebiscite from “Chamorros” to
“Native Inhabitants of Guam”. A native inhabitant
was defined as a person who became a citizen by virtue
of the 1950 Organic Act of Guam and a descendant of
such person.
P.L. 25-106 also created a Guam Decolonization
Registry. It was a registry separate and apart from the
Chamorro registry. The Decolonization Registry was
to create a list of qualified voters for the plebiscite.
Thus, every person who was a native inhabitant of
Guam as defined in the Act was entitled to register
with the Decolonization Registry.
Four years after passage of the Guam
Decolonization Registry and seeing that a plebiscite
vote had still not taken place, the Guam Legislature
passed P.L. 27-106 on September 30, 2004. This Act
provided that the Political Status Plebiscite shall be
held on a general election at which seventy percent
(70%) of eligible voters have been registered as
determined by the Guam Election Commission.
C. Procedural History
On November 22, 2011, Plaintiff filed his
complaint herein. See Compl., ECF No. 1. On
December 2, 2011, the Attorney General of Guam,

App-101
Leonardo M. Rapadas, a named Defendant, on behalf
of himself and all named defendants, moved to dismiss
the complaint on the ground that it failed to present a
case or controversy. See Def.s’ Mot., ECF No. 17.
On December 30, 2011, Anne Perez Hattori (“Ms.
Hattori”), filed a Motion for Leave to file a brief, as
Amicus Curiae, in support of Defendants’ Motion to
Dismiss. See Mot., ECF No. 20.
On January 3, 2012, Plaintiff filed his opposition
to Defendant’s Motion to Dismiss and on January 7,
2012, he filed an opposition to Ms. Hattori’s Motion for
Leave to file an Amicus Curiae brief. See Pl.’s Opp’n,
ECF No. 21 and Pl.’s Opp’n, ECF No. 23.
On February 1, 2012, Defendants’ Motion to
Dismiss was referred by the undersigned to the
Magistrate Judge for a Report and Recommendation.
See Order, ECF No. 25.
On April 6, 2012, the court granted Ms. Hattori’s
motion for leave to file a brief, as Amicus Curiae. See
Order, ECF No. 41.
On June 14, 2012, the Magistrate Judge issued
his Report and Recommendation (“Report”). See Rpt.
and Rec., ECF No. 44. Therein, the Magistrate Judge
recommended the Plaintiff’s Complaint be dismissed
because the Plaintiff lacks standing and the case is not
ripe for adjudication.
The Plaintiff filed his objections to the United
States Magistrate’s Report and Recommendation on
July 1, 2012. See Pl.’s Obj., ECF No. 46. The
Defendants filed their Response to the Plaintiff’s
objections to the Report on July 16, 2012. See Def.s’
Response. ECF No. 47.

App-102
On September 21, 2012, the court ordered the
Defendants to file a responsive pleading, specifically
addressing the applicability of John Davis, Jr. v.
Commonwealth Election Committee, Case No. 12-CV00001, 2012 WL 2411252 (D.N.M.I. June 26, 2012).
See Order, ECF No. 69.
A hearing on the Plaintiff’s objections to the
Report was held on November 15, 2012.
II. JURISDICTION AND VENUE
The court has jurisdiction to hear this matter
pursuant to 28 U.S.C. § 1331 for Plaintiff’s claims
under 28 U.S.C. § 1343 and 48 U.S.C. § 1424(b).
Venue is proper in this judicial district, the
District of Guam, because Plaintiff and Defendants
reside on Guam, and because all of the events or
omissions giving rise to Plaintiff’s claims occurred
here. See 28 U.S.C. § 1391.
III. STANDARD OF REVIEW
When a party files a timely objection to a
magistrate judge’s report and recommendation, “[a]
judge of the court shall make a de novo determination
of those portions of the report or specified proposed
findings or recommendations to which objection is
made.” 28 U.S.C. § 636(b)(1)(C); see Baxter v. Sullivan,
923 F.2d 1391, 1394 (9th Cir. 1991); see also Fed. R.
Civ. P. 72(b)(3) (stating “[t]he district judge must
determine de novo any part of the magistrate judge’s
disposition that has been properly objected to”). “A
judge of the court may accept, reject, or modify, in
whole or in part, the findings or recommendations
made by the magistrate judge.” 28 U.S.C.
§ 636(b)(1)(C); see also Fed. R. Civ. P. 72(b)(3) (stating

App-103
a district judge “may accept, reject, or modify the
recommended disposition; receive further evidence; or
return the matter to the magistrate judge with
instructions”).
A district court’s obligation to make a de novo
determination of properly contested portions of a
magistrate judge’s report and recommendation does
not require that the judge conduct a de novo hearing
on the matter. United States v. Raddatz, 447 U.S. 667,
676 (1980). Accordingly, the court makes a de novo
review to those portions of the Report and
Recommendation in which the Plaintiff has lodged
objections.
IV. APPLICABLE
STANDARD
MOTION TO DISMISS

FOR

The Defendants argue that this court has no
jurisdiction to hear this action under Rule 12(b)(1)
because the Plaintiff lacks standing and the matter is
not ripe for review. 3 Standing and ripeness are legal
issues subject to de novo review. Bruce v. United
States, 759 F.2d 755, 758 (9th Cir. 1985).
V. DISCUSSION
The Defendants moved to dismiss the Plaintiff’s
complaint arguing that there was no case or
controversy before the court. In the amicus curiae
brief Ms. Hatorri argued that there was no standing
and the case was not ripe. The Magistrate Judge
agreed with Ms. Hattori and found the Plaintiff’s
3 The Defendants also move for dismissal under Civil Procedure
Rule 12(b)(6). However, the court need not address that
particular argument, in light of this court’s ruling concerning its
lack of subject matter jurisdiction.

App-104
claims were not ripe for adjudication. He
recommended dismissal of the Plaintiff’s Complaint
for the following reasons:
1. Plaintiff’s complaint which seeks to enjoin
Defendants from preventing him from
registering and voting in the ‘Political Status
Plebiscite’ on a general election presents no
case or controversy since the matter is not
ripe for adjudication. There is no plebiscite
vote set in the 2012 general election and no
plebiscite vote to date is in sight. Plaintiff’s
allegations present no sufficient immediacy
and reality to warrant intervention by the
court.
2. Plaintiff has no standing to bring an action
to enjoin the Attorney General from enforcing
the provisions of the plebiscite law that
makes it a misdemeanor to register or allow
anyone to register with the Guam
Decolonization Registry if the person were
not a Native Inhabitant of Guam. Plaintiff
has not alleged that he has been charged with
any crime in relation to the Political Status
Plebiscite act nor has he shown that he is
subject to a genuine threat of imminent
prosecution in relation to the said act.
See Rpt. and Rec., ECF No. 44, at 9:20-10:4.
The Plaintiff objects to the Magistrate Judge’s
findings and conclusions which are now before this
court for consideration.

App-105
A. No Opportunity to be heard on ripeness
issue.
First, the Plaintiff objects to the fact that he was
not given an opportunity to be heard on the ripeness
arguments, which were raised for the first time in the
amicus brief. As noted above, the Defendants filed
their Motion to Dismiss on December 2, 2011. See
Mot., ECF No. 17. Therein, they did not raise the issue
of ripeness. Id.
On the last day for the filing of the Plaintiff’s
opposition to the motion—December 30, 2011, a
Motion for Leave to File an amicus curiae brief was
filed by Ms. Hattori supporting dismissal based upon
a ripeness argument. See Mot., ECF No. 20. On April
6, 2012, the Magistrate Judge granted leave to the
amicus to file the brief containing the ripeness
arguments. However, there was no provision in the
Magistrate Judge’s order permitting the Plaintiff to
file an opposition, nor was a hearing scheduled to hear
argument on the matter.
The Government argues that the Plaintiff should
not be found wanting in this regard. “First, ‘subjectmatter jurisdiction, because it involves a court’s power
to hear a case, can never be forfeited or waived.’
Moreover, courts … have an independent obligation to
determine whether subject-matter jurisdiction exists,
even in the absence of a challenge from any party.”
Arbaugh v. Y&H Corp., 546 U.S. 500, 514 (2006)
(quoting United States v. Cotton, 535 U.S. 625, 630
(2002); also citing Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574, 583 (1999)). “[N]o action of the parties
can confer subject-matter jurisdiction upon a federal
court. Thus, the consent of the parties is irrelevant,

App-106
principles of estoppel do not apply, and a party does
not waive the requirement by failing to challenge
jurisdiction early in the proceedings.” Insurance Corp.
of Ireland, Ltd. v. Compagnie des Bauxites de Guinee,
456 U.S. 694, 702 (1982) (citations omitted).
It is probably true that the Plaintiff should have
been given an opportunity to be heard at the time the
matter was before the Magistrate Judge. Yet, because
the Plaintiff actually addresses the issue of ripeness
in his objections to the Report, he has now been given
an opportunity, such that, this court can rule on the
matter without need for additional briefing.
B. Article III
Article III of the United States Constitution
requires that those who seek to invoke the power of
the federal courts must allege an actual case or
controversy. See U.S. Const. art. III; see also Los
Angeles v. Lyons, 461 U.S. 95, 101 (1983) (citing Flast
v. Cohen, 392 U.S. 83, 94-101 (1968)). Subsumed
within this restriction are two components. Colwell v.
Dep’t of Health & Human Servs., 558 F.3d 1112, 112123 (9th Cir. 2009). “Standing and ripeness present the
threshold jurisdictional question of whether a court
may consider the merits of a dispute.” Elend v.
Basham, 471 F.3d 1199, 1204 (11th Cir. 2006). “Both
standing and ripeness originate from the
Constitution’s Article III requirement that the
jurisdiction of federal courts be limited to actual cases
and controversies.” Id. at 1204-05.
“The Article III case or controversy requirement
limits federal courts’ subject matter jurisdiction by
requiring, inter alia, that plaintiffs have standing and
that claims be ‘ripe’ for adjudication . . . Standing

App-107
addresses whether the plaintiff is the proper party to
bring the matter to the court for adjudication. The
related doctrine of ripeness is a means by which
federal courts may dispose of matters that are
premature for review because the plaintiff’s purported
injury is too speculative and may never occur.”
Chandler v. State Farm Mut. Auto. Ins. Co., 598 F.3d
1115, 1121-22 (9th Cir. 2010) (citations omitted). “The
standing question is whether the plaintiff has alleged
such a personal stake in the outcome of the
controversy as to warrant his invocation of federalcourt jurisdiction. The ripeness question is whether
the harm asserted has matured sufficiently to warrant
judicial intervention. Both questions bear close
affinity to one another.” Immigrant Assistance Project
of Los Angeles County Federation of Labor (AFL-CIO)
v. I.N.S., 306 F.3d 842, 859 (9th Cir. 2002) (quotation
marks, editorial brackets and citations omitted). See
also, City of Auburn v. Qwest Corp., 260 F.3d 1160,
1172 n.6 (9th Cir. 2001) (noting that standing
“overlaps substantially” with ripeness and that in that
case, both were “inextricably linked”).
1.

Standing

The standing dispute in this case is entirely over
whether the Plaintiff is in-fact injured because he
cannot register to vote in a plebiscite that may, in fact,
never be held. In order for a plaintiff to demonstrate
standing for injunctive and declaratory relief:
[A] plaintiff must show that he [or she] is
under threat of suffering “injury in fact” that
is concrete and particularized; the threat
must be actual and imminent, not conjectural
or hypothetical; it must be fairly traceable to

App-108
the challenged action of the defendant; and it
must be likely that a favorable judicial
decision will prevent or redress the injury.
Summers v. Earth Island Institute, 129 S. Ct. 1142,
1149 (2009) (quoting Friends of Earth, Inc. v. Laidlaw
Environmental Services (TOC), Inc., 528 U.S. 167,
180-81 (2000)).
A plaintiff must demonstrate “a real and
immediate threat that he would again” suffer the
injury to have standing for prospective equitable
relief. Lyons, 461 U.S. at 105. The “mere physical or
theoretical possibility” of a challenged action again
affecting a plaintiff is not sufficient. Murphy v. Hunt,
455 U.S. 478, 482 (1982). It is necessary that there be
a “reasonable expectation” or a “demonstrated
probability” that the same controversy will recur
involving the plaintiff. Weinstein v. Bradford, 423 U.S.
147, 149 (1975).
To establish Article III standing, a plaintiff
must show inter-alia that he faces imminent
injury on account of the defendant’s conduct.
Past exposure to harmful or illegal conduct
does not necessarily confer standing to seek
injunctive relief if the plaintiff does not
continue to suffer adverse effects. Nor does
speculation or “subjective apprehension”
about future harm support standing. Once a
plaintiff has been wronged, he is entitled to
injunctive relief only if he can show that he
faces a “real or immediate threat . . . that he
will again be wronged in a similar way.”
Mayfield v. United States, 599 F.3d 964, 970 (9th Cir.
2010) (citations omitted).

App-109
In order to establish an injury in fact necessary to
a claim for injunctive relief, the moving party must
demonstrate that a defendant’s conduct is causing
irreparable harm. Levin v. Harleston, 966 F.2d 85, 90
(2d Cir. 1992). This requirement cannot be met absent
a showing of a real or immediate threat that the
plaintiff will be wronged again. Lyon, 461 U.S. at 101.
While past wrongs consist of evidence bearing on
whether there is a real and immediate threat of
repeated injury, “[p]ast exposure to illegal conduct
does not in itself show a present case or controversy
regarding injunctive relief . . . if unaccompanied by
any continuing, present adverse effects.” O’Shea v.
Littleton, 414 U.S. 488, 495-96 (1974). Thus, “there
must be sufficient immediacy, reality and causality
between defendants’ conduct
and plaintiffs’
allegations of future injury” to warrant injunctive
relief. Weiser v. Koch, 632 F.Supp. 1369, 1373
(S.D.N.Y. 1986).
Examining the facts of the case it is clear there is
no on-going, real and immediate threat of repeated
injury sufficient to confer standing for injunctive
relief. Plaintiff has not successfully argued nor has he
shown that he is presently threatened with or has
already suffered any irreparable damage or injury
because he cannot register for a plebiscite that is more
likely than not to occur. See Benoit v. Gardner, 345
F.2d 792, 793 (1965) (“There must, at the least, be a
strong showing of a likelihood of success and of
irreparable harm.”). A purely hypothetical threat to
federally protected rights does not afford a basis for
injunctive relief nor does it raise before the court a
justiciable controversy. United Public Workers of
America (C.I.O.) v. Mitchell, 330 U.S. 75, 90 (1947).

App-110
The Magistrate Judge also found the Plaintiff
lacked standing to challenge the enforcement of 3 GCA
§ 20009 which makes it a crime to register or allow a
person to register with the Guam Decolonization
Registry, who is not a Native Inhabitant of Guam.
That section of the Guam code makes it a
misdemeanor for anyone who “willfully causes,
procures or allows” any person “to be registered with
the Guam Decolonization Registry, while knowing
that the person . . . is not entitled to register” with the
Decolonization Registry. 3 Guam Code. Ann. § 21009.
The Plaintiff “must demonstrate a genuine threat
that the allegedly unconstitutional law is about to be
enforced against him.” Stoianof v. State of Montana,
695 F.2d 1214, 1223 (9th Cir. 1983). “A plaintiff must
do more than merely allege imminent harm sufficient
to establish standing, he or she must demonstrate
immediate threatened injury as a prerequisite to
preliminary injunctive relief.” Associated General
Contractors of California, Inc. v. Coalition for
Economic Equity, 950 F.2d 1401, 1410 (9th Cir. 1991).
The Magistrate Judge found the Plaintiff had not
been charged with a misdemeanor, nor had he shown
that he is subject to a genuine threat of imminent
prosecution. See Wolfson v. Brammer, 616 F. 3d 1045,
1058 (9th Cir. 2010), quoting San Diego Cnty. Gun
rights Comm. v. Reno, 98 F. 3d 1121, 1126 (9th Cir.
1996). In evaluating threats of imminent prosecution,
the court considers: (1) whether plaintiff has
articulated a concrete plan to violate the law in
question; (2) whether prosecuting authorities have
communicated a specific warning or threat to initiate
proceedings; and (3) whether the past history of past

App-111
prosecution or enforcement under the challenged
statute suggests that prosecution may, in fact, be
imminent. Id. While the Plaintiff may believe there is
a possibility of prosecution, that remains speculative
at best. A general threat of prosecution is not enough
to confer standing. See e.g. Poe v. Ullman, 367 U.S.
497, 501 (1961) (mere allegation that state attorney
intended to prosecute any offense against the local law
held insufficient to confer standing).
In addition, the Plaintiff’s inability to point to any
history of prosecutions undercuts his argument that
he faces a genuine threat of prosecution. See Rincon
Band of Mission Indians v. County of San Diego, 495
F.2d 1, 4 (9th Cir. 1974) (no standing where the record
did not reveal there had been a history of prosecution
under the county ordinance); Western Mining Council
v. Watt, 643 F.2d 618, 624 (9th Cir. 1981) (no standing
where plaintiffs failed to allege that the challenged
statute had ever been applied or threatened to apply).
At most, the Plaintiff speculates that there is the
possibility of prosecution. Because the Plaintiff has
not sufficiently alleged how the Defendants will
immediately harm him, this court hereby overrules
the Plaintiff’s objection and affirms the Magistrate
Judge’s report and recommendation on this issue.
2.

Ripeness

The question of timing turns on the jurisdictional
doctrine of ripeness. “The ‘basic rationale’ for the
ripeness doctrine ‘is to prevent the courts, through
avoidance of premature adjudication, from entangling
themselves in abstract disagreements’ over policy
with other branches of the federal government.”
Hillblom v. United States, 896 F.2d 426, 430 (9th Cir.

App-112
1990), citing Abbott Labs. v. Gardner, 387 U.S. 136,
148 (1967).
Ripeness often overlaps with standing, “most
notably in the shared requirement that the injury be
imminent rather than conjectural or hypothetical.”
Brooklyn Legal Servs. Corp. v. Legal Servs. Corp., 462
F.3d 219, 225 (2d Cir. 2006). As is often the case
“sorting out where standing ends and ripeness begins
is not an easy task.” See Thomas v. Anchorage Equal
Rights Comm’n,, 220 F.3d 1134, 1138-39 (9th Cir.
2000). “A claim is not ripe for adjudication if it rests
upon contingent future events that may not occur as
anticipated, or indeed, may not occur at all.” Texas v.
United States, 523 U.S. 296, 300 (1998) (quotation
marks omitted). “Two considerations predominate the
ripeness analysis: (1) “the hardship to the parties of
withholding court consideration” and (2) “the fitness
of the issues for judicial decision.” Abbott Labs., 387
U.S. at 149. “To meet the hardship requirement, a
party must show that withholding judicial review
would result in direct and immediate hardship and
would entail more than possible financial loss.”
Dietary Supplemental Coalition, Inc. v. Sullivan, 978
F.2d 560, 562 (9th Cir. 1992). The Supreme Court has
long since held that where the enforcement of a
statute is certain, a preenforcement challenge will not
be rejected on ripeness grounds. See Holder v.
Humanitarian Law Project, 130 S.Ct. 2705, 2717
(2010).
The Defendants argue that the Plaintiff, himself,
admits that the controversy as presented is not ripe.
The Defendants rely on an article written by the
Plaintiff which was published in the Marianas Variety

App-113
titled, “Getting Out the Vote.” See Defs’ Resp., ECF
No. 47, Attachment. In the article, the Plaintiff states:
With regard to the actual goal involved—the
plebiscite itself, the end of the selfdetermination rainbow, as it were—nearterm optimism has given way to financial and
other realities. Hope for a plebiscite as early
as 2012 has now faded to 2016 or beyond.
Funding isn’t the only problem, either. Guam
law requires registration of “70% of eligible
voters” before a political status plebiscite can
occur. Of course nobody knows what that
figure actually is, as it changes daily. Senator
Pangelinan is responsible for that particular
bit of whimsical fluff.
A while ago I compared the growth rate of
signatures on the Decolonization Registry to
the timeline since the Registry was created.
Even with a newly-enacted law that
automatically adds everyone who qualifies for
a CLTC lease it looks like they have a tough
row to hoe. I suspect that most of those
automatically registered are blissfully
unaware they were signed up by proxy.
I compute a high probability of reaching the
70% level sometime early in the 25th century.
Even that may be a bit optimistic however,
because it’s become apparent that virtually
all the eligibles who wished to sign—or were
signed up automatically by their friends at
the Guam Election Commission—have
already done so.

App-114
Meanwhile, due at least partly to Guam’s
standing as the undisputed champion in
national birth rate statistics (with Utah a
distant second) the number of ‘Native
Inhabitants’ reaching voting age annually
exceeds the number signing up to vote. It
looks like they’re actually losing ground in
the struggle to reach that magical 70%.
It’s time to regroup, I suppose, or the
plebiscite will forever be an alluring mirage
out there on the horizon. I believe we can
expect a change to eliminate the 70%
requirement or reduce it to something like,
say, 10%, which is approximately where they
stand at the moment. They should probably
do it soon, because that number gets smaller
every day.
Id.
Ordinarily, the court should pay little attention to
an editorial in a periodical. However, the court
considers the opinion voiced by the Plaintiff, in that
the historical facts support the conclusion that the
plebiscite is not likely to occur any time soon, or if at
all. There is little likelihood that the plebiscite will be
scheduled any time in the near future.
Because of the similarities of facts and issues, the
court asked the parties to consider the applicability of
the Commonwealth of the Northern Marianas Islands
(“CNMI”) case, John Davis, Jr. v. Commonwealth
Election Commission, Case No. 1-12-CV-00001, 2012
WL 2411252 (D.N.M.I. June 26, 2012). In Davis, the
plaintiff, sought judicial relief to permanently enjoin
the chairperson and the executive director of the

App-115
Commonwealth Election Commission (“CEC” or “the
Commission”) from denying him the right to vote on
any initiative to amend or repeal Article XII of the
Constitution of the Commonwealth of the Northern
Mariana Islands (“Commonwealth” or “CNMI”).
Article XII restricts ownership of permanent and longterm interests in real property within the
Commonwealth to persons of Northern Marianas
descent (“NMD”). In 1999, Article XVIII of the
Commonwealth Constitution was amended to prohibit
non-NMDs who otherwise are qualified voters from
voting on initiatives to change Article XII.
Mr. John Davis, a person of non-NMD descent,
who is otherwise qualified to vote in the
Commonwealth, argued that the restriction to his
right to vote violated his civil rights as guaranteed by
the Fourteenth and Fifteenth Amendments of the
United States Constitution. Chief Judge Ramona
Manglona dismissed without prejudice a legally
similar attack on registration and election procedures
in the CNMI to those presented by the plaintiff here
in Guam. Addressing whether the claims in Mr. John
Davis’ complaint were ripe for judicial review the court
noted,
A claim is “not ripe for adjudication if it rests
upon contingent future events that may not
occur as anticipated, or indeed may not occur
at all[,]” or if it is “too speculative whether the
problem [plaintiff] presents will ever need
solving.” Texas v. United States, 523 U.S. 296,
300, 302 (U.S. 1998) (internal citation
omitted). However, “[w]here the inevitability
of the operation of a statute against certain

App-116
individuals is patent, it is irrelevant to the
existence of a justiciable controversy that
there will be a time delay before the disputed
provisions will come into effect.” Reg’l Rail,
419 U.S. at 143.
Davis, 2012 WL 2411252 at *6.
Chief Judge Manglona found that John Davis’
claims were not ripe because no initiative was
scheduled for the next election. The court held, “While
[John] Davis may find it distressing to contemplate
that under Commonwealth law, if an Article XII
initiative gets on the ballot he will not be permitted to
vote on it, he suffers no hardship until an initiative is
‘certainly impending.’” Id., at *7. The same rationale
is true of the Plaintiff’s claims challenging a plebiscite
in Guam. Until the plebiscite he seeks to register for
is “certainly impending,” he has no claim.
Here, just as in the CNMI case, there is no
discernible future election in sight. Indeed, while Mr.
Davis cites the fact that the plebiscite has been set and
reset repeatedly as proof of hardship, what it actually
demonstrates is just how uncertain it is as to exactly
when a plebiscite will ever be held. To suffer a real
discernible injury, any registration would have to be,
by necessity, related to an election that is actually
scheduled. See Babbitt v. United Farm Workers
National Union, 442 U.S. 289, 301 n.12 (1979) (The
ripeness of an election law claim “depends not so much
on the fact of past injury but on the prospect of its
occurrence in an impending or future election.”).
Because the Plaintiff has not demonstrated that there
is a real threat of the election occurring any time soon,
the court hereby overrules the Plaintiff’s objection and

App-117
affirms the Magistrate
recommendation.

Judge’s

report

and

VI. CONCLUSION
Based on the discussion above, the court hereby
accepts and adopts the Magistrate Judge’s report and
recommendation on this matter, and GRANTS the
Defendant’s Motion to Dismiss. Said dismissal is
without prejudice.
The Plaintiff may bring this suit again before this
court for consideration if and when the Plaintiff is able
to demonstrate that the plebiscite will occur for
certain any time soon.
SO ORDERED.
/s/ Frances M. Tydingco-Gatewood
Chief Judge
Dated: Jan 09, 2013

App-118
Appendix E
RELEVANT STATUTORY PROVISIONS
48 U.S.C. § 1421b(u)
(u) The following provisions of and amendments
to the Constitution of the United States are hereby
extended to Guam to the extent that they have not
been previously extended to that territory and shall
have the same force and effect there as in the United
States or in any State of the United States: article I,
section 9, clauses 2 and 3; article IV, section 1 and
section 2, clause 1; the first to ninth amendments
inclusive; the thirteenth amendment; the second
sentence of section 1 of the fourteenth amendment;
and the fifteenth and nineteenth amendments.
All laws enacted by Congress with respect to
Guam and all laws enacted by the territorial
legislature of Guam which are inconsistent with the
provisions of this subsection are repealed to the extent
of such inconsistency.
Organic Act of Guam, Pub. L. No. 81-630,
64 Stat. 384 (1950)
AN ACT
To provide a civil government for Guam and for
other purposes.
Be it enacted by the Senate and House of
Representatives of the United States of America in
Congress assembled, That this Act may be cited as the
“Organic Act of Guam”.
Sec. 2. The territory ceded to the United States in
accordance with the provisions of the Treaty of Peace
between the United States and Spain, signed at Paris,

App-119
December 10, 1898, and proclaimed April 11, 1899,
and known as the island of Guam in the Marianas
Islands, shall continue to be known as Guam.
Sec. 3. Guam is hereby declared to be an
unincorporated territory of the United States and the
capital and seat of government thereof shall be located
at the city of Agana, Guam. The government of Guam
shall have the powers set forth in this Act and shall
have power to sue by such name. The government of
Guam shall consist of three branches, executive,
legislative, and judicial, and its relations with the
Federal Government shall be under the general
administrative supervision of the head of such civilian
department or agency of the Government of the
United States as the President may direct.
CITIZENSHIP
Sec. 4. (a) Chapter II of the Nationality Act of
1940, as amended, is hereby further amended by
adding at the end thereof the following new section:
“SEC. 206. (a) The following persons, and
their children born after April 11, 1899, are
hereby declared to be citizens of the United
States, if they are residing on the date of
enactment of this section on the island of Guam or
other territory over which the United States
exercises rights of sovereignty:
“(1) All inhabitants of the island of Guam on
April 11, 1899, including those temporarily
absent from the island on that date, who were
Spanish subjects, who after that date continued to
reside in Guam or other territory over which the
United States exercises sovereignty, and who

App-120
have taken no affirmative steps to preserve or
acquire foreign nationality.
“(2) All persons born in the island of Guam
who resided in Guam on April 11, 1899, including
those temporarily absent from the island on that
date, who after that date continued to reside in
Guam or other territory over which the United
States exercises sovereignty, and who have taken
no affirmative steps to preserve or acquire foreign
nationality.
“(b) All persons born in the island of Guam on
or after April 11, 1899 (whether before or after the
date of enactment of this section), subject to the
jurisdiction of the United States, are hereby
declared to be citizens of the United States:
Provided, That in the case of any person born
before the date of enactment of this section, he has
taken no affirmative steps to preserve or acquire
foreign nationality.
“(c) Any person hereinbefore described who is
a citizen or national of a country other than the
United States and desires to retain his present
political status shall make, within two years of the
date of enactment of this section, a declaration
under oath of such desire, said declaration to be
in form and executed in the manner prescribed by
regulations. From and after the making of such a
declaration any such person shall be held not to
be a national of the United States by virtue of this
Act.
“(d) The Commissioner of Immigration and
Naturalization, with the approval of the Attorney
General, is hereby authorized and empowered to

App-121
make and prescribe such rules and regulations
not in conflict with this Act as he may deem
necessary and proper.
“(e) Section 404 (c) of this Act shall not apply
to persons who acquired citizenship under this
section.”
(b) Subsection (a) of section 303 of the Nationality
Act of 1940, as amended (8 U. S. C., sec. 703), is hereby
amended by adding the following new subparagraph:
“(5) Guamanian persons and persons of
Guamanian descent.”
*

*

*

1 Guam Ann. Code § 2102
(a) Self-Determination. Freedom of a people to
determine the way in which they shall be governed
and whether or not they shall be self-governed.
(b) ‘Native Inhabitants of Guam’ shall mean those
persons who became U.S. Citizens by virtue of the
authority and enactment of the 1950 Guam Organic
Act and descendants of those persons.
1 Guam Ann. Code § 2105
The general purpose of the Commission on
Decolonization shall be to ascertain the intent of the
Native Inhabitants of Guam as to their future political
relationship with the United States of America. Once
the intent of the Native Inhabitants of Guam is
ascertained, the Commission shall promptly transmit
that desire to the President and the Congress of the
United States of America, and to the Secretary
General of the United Nations.

App-122
1 Guam Ann. Code § 2110
(a) The Guam Election Commission shall conduct
a “Political Status Plebiscite”, at which the following
question, which shall be printed in both English
and Chamorro, shall be asked of the eligible voters:
In recognition of your right to self-determination,
which of the following political status options do you
favor? (Mark ONLY ONE):
1.

Independence ( )

2.

Free Association with the United States of
America ( )

3.

Statehood ( ).

Persons eligible to vote shall include those
persons designated as Native Inhabitants of Guam, as
defined within this Chapter of the Guam Code
Annotated, who are eighteen (18) years of age or older
on the date of the “Political Status Plebiscite” and are
registered voters on Guam.
The “Political Status Plebiscite” mandated in
Subsection (a) of this Section shall be held on a date of
the General Election at which seventy percent (70%)
of eligible voters, pursuant to this Chapter, have been
registered as determined by the Guam Election
Commission.
3 Guam Ann. Code § 21000
In furtherance of Public Law Number 23-147, now
codified as Chapter 21 of Title 1 of the Guam Code
Annotated,
wherein
the
Commission
on
Decolonization was established and given the
mandate to conduct a plebiscite on the political status
wishes of the people of Guam, I Liheslaturan

App-123
Guåhan finds there is a need for a Registry, separate
and apart from the Chamorro Registry authorized by
Public Law Number 23-130, now codified as Chapter
20 of Title 3 of the Guam Code Annotated, which will
specifically delineate the list of qualified voters for the
political status plebiscite, and intends that this
separate Registry not be one based on race.
It is the intent of I Liheslaturan Guåhan to permit
the native inhabitants of Guam, as defined by the U.S.
Congress’ 1950 Guam Organic Act to exercise the
inalienable right to self-determination of their
political relationship with the United States of
America.
I Liheslaturan Guåhan finds that the right has
never been afforded the native inhabitants of Guam,
its native inhabitants and land having themselves
been overtaken by Spain, and then ceded by Spain to
the United States of America during a time of war,
without any consultation with the native inhabitants
of Guam.
This inalienable right is founded upon the 1898
Treaty of Peace between the United States and Spain;
Chapter XI of the United Nations Charter; the United
States’ yearly reports to the United Nations on the
Non Self-governing Territory of Guam; 1950 Organic
Act of Guam; United Nations Resolution Number 1541
(XV); United Nations Resolution 1514 (XV); § 307 (a)
of the United States Immigration and Nationality Act;
and Part I, Article 1, Paragraphs 1 and 3 of the
International Covenant on Civil and Political Rights.
I Liheslaturan Guåhan notes that the 1950
Congress acknowledged its United Nations’
responsibilities:

App-124
In addition to its obligation under the Treaty of
Paris, the United States has additional treaty
obligations with respect to Guam as a non-selfgoverning Territory. Under Chapter XI of the Charter
of the United Nations, ratified by the Senate June 26,
1945 (59 Stat. at p. 1048), we undertook, with respect
to the people of such Territories, to insure political
advancement, to develop self-government, and taking
“due account of the political aspirations of the peoples;
* * * to assist them in the progressive development of
their free political institutions * * *.” Organic Act of
Guam, Sen. Rep. 2109, 1950 U.S. Code & Admin.
Report p. 2841.
It is the purpose of this legislation to seek the
desires to those peoples who were given citizenship in
1950 and to use this knowledge to further petition
Congress and other entities to achieve the stated
goals.
The intent of this Chapter shall not be construed
nor implemented by the government officials
effectuating its provisions to be race based, but
founded upon the classification of persons as defined
by the U.S. Congress in the 1950 Guam Organic Act.

